September 12, 2003
Audit Report No. 03-038


The Role of Prompt Corrective Action as
Part of the Enforcement Process
                                            TABLE OF CONTENTS

BACKGROUND ................................................................................................................2

RESULTS OF AUDIT.......................................................................................................3

SECTION 38 CAPITAL-RELATED PROVISIONS .....................................................4

          PCA DIRECTIVES WERE PART OF THE FDIC’S SUPERVISORY
          PROCESS AND PREVENTED OR REDUCED LOSSES TO THE
          DEPOSIT INSURANCE FUNDS.........................................................................4

          OTHER SUPERVISORY ACTIONS TAKEN PRIOR TO THE
          ISSUANCE OF PCA DIRECTIVES ....................................................................7

          FACTORS IMPACTING THE EFFECTIVENESS OF SECTION 38
          CAPITAL-RELATED PROVISIONS ...............................................................10
            Capital Can Be a Lagging Indicator .............................................................10
            Capital Ratios Reported in Call Reports Are Not Always Reliable ..........12
            Institutions May Delay Implementation of PCA Directives or
            Closure by Increasing Capital .......................................................................14
                 Sale of Assets.............................................................................................15
                 Transfer of Income from Affiliate .............................................................15
                 In-Kind Capital Contribution.....................................................................16
                 Contribution of Capital After a PCA Directive .........................................16
            Risks Related to Subpri me Loans Are Not Accounted for in the
            Current Method of Computing Capital........................................................17
            Conclusion ......................................................................................................21

SECTIONS 38 AND 39 NON-CAPITAL-RELATED PROVISIONS ........................22

         NON-CAPITAL-RELATED PROVISIONS WERE SELDOM USED...........22
           Reclassification of Capital Category Based on Non-capital Factors ..........22
           Improving Management .................................................................................24
           Supervisory Actions Based on Safety and Soundness Standards ...............26
           Conclusion ......................................................................................................28

LEGISLATIVE AND REGULATORY OPTIONS FOR CONSIDERATION .........29

CORPORATION COMMENTS AND OIG EVALUATION......................................30

APPENDIX I: LIST OF INSTITUTIONS REVIEWED ............................................32

APPENDIX II: OBJECTIVES, SCOPE, AND METHODOLOGY..........................33

APPENDIX III: ADDITIONAL BACKGROUND INFORMATION ON
              PROMPT CORRECTIVE ACTION PROVISIONS .....................35
APPENDIX IV: EXAMPLES OF DEFICIENCIES IDENTIFIED BY
             EXAMINERS ....................................................................................40

APPENDIX V: GLOSSARY..........................................................................................43

APPENDIX VI: CORPORATION COMMENTS.......................................................46


TABLES

Table 1:          Banks for Which PCA Directives Were Used .............................................5
Table 2:          Time Lapse Between Use of PCA Directives and
                  Closure/Acquisition and Capital Available at the Time of Closure ............6
Table 3:          Supervisory Actions Taken Prior to PCA Directives ..................................9
Table 4:          Analysis of Problems Identified, Capital Categories, Supervisory
                  Actions, and Time Lapse Between Identification of Problems
                  and PCA Directives....................................................................................11
Table 5:          Institutions for which Examiners Lowered Capital Categories .................14
Table 6:          Information from Two Examinations of Open Bank # 3 ...........................19
Table 7:          Information from Two Examinations of Open Bank # 1 ...........................19
Table 8:          Capital Categories and Ratios Defined by Section 38 Provisions .............36
Federal Deposit Insurance Corporation                                                                        Office of Audits
Washington, D.C. 20434                                                                          Office of Inspector General




   DATE:            September 12, 2003

   TO:              Michael J. Zamorski, Director
                    Division of Supervision and Consumer Protection


   FROM:            Russell A. Rau
                    Assistant Inspector General for Audits

   SUBJECT: The Role of Prompt Corrective Action (PCA) as Part of the Enforcement
            Process (Audit Report No. 03-038)

   This report presents the results of an audit we conducted to determine whether the Prompt
   Corrective Action (PCA) provisions were used as part of the FDIC’s enforcement process
   and served to reduce the losses to the deposit insurance funds. This is a follow-up audit
   to our earlier report entitled The Effectiveness of Prompt Corrective Action Provisions in
   Preventing or Reducing Losses to the Deposit Insurance Funds, dated March 26, 2002.
   Our earlier audit focused on determining whether prompt corrective action provisions
   were implemented in a timely manner for Superior Bank (Superior), First National Bank
   of Keystone (Keystone), and Pacific Thrift & Loan Company (PTL) and whether those
   actions prevented or reduced losses to the insurance funds.

   Pursuant to our earlier audit, and in consultation with the FDIC’s Divisions of
   Supervision and Consumer Protection (DSC) and Resolutions and Receivership s (DRR),
   we expanded our work to a larger sample of 11 FDIC-supervised institutions to address
   our stated objectives. We selected a sample of failed as well as open institutions so that
   we could determine whether PCA provisions were used or should have been used. 1 See
   Appendix I for the list of 11 institutions that we reviewed. 2

   In performing this audit, we conducted case studies of the 11 institutions to gain insight
   into the use of PCA provisions and their relation to the other elements of the FDIC’s
   supervisory authority. Appendix II provides additional details on our objectives, scope,
   and methodology. We also shared our case histories with the DSC, Legal Division,
   Division of Insurance and Research (DIR), and DRR. In addition, we shared a working
   draft of this report with the DSC, DRR, DIR, and Legal Division. We have included their
   comments, where appropriate.

   1
     Throughout this report, we use the term failed banks to mean banks closed as well as ones acquired by
   other banks.
   2
     As of May 31, 2003, six of these banks were closed, two had been acquired, and three remained open. To
   protect the identity of the open institutions, we refer to them throughout our report as Open Banks #1, #2,
   and #3.
                                                            1
BACKGROUND

In response to the criticism that federal banking regulators were not taking prompt and
forceful action to minimize or prevent losses to the insurance funds stemming from bank
and thrift failures, the Congress passed the Federal Deposit Insurance Corporation
Improvement Act of 1991 (FDICIA), Public Law 102-242, to improve the supervision
and examination of depository institutions and protect the insurance funds from further
losses.

FDICIA’s Prompt Regulatory Action provisions created two new sections in the Federal
Deposit Insurance Act—sections 38 and 39, codified to 12 U.S.C. §1831o and
1831p-1—which required that regulators establish a two-part regulatory framework to
improve safeguards for the deposit insurance funds . Enactment of this two-part system
was intended to increase the likelihood that regulators would respond promptly and
forcefully to prevent or minimize losses to the deposit insurance funds.

The first part of the framework, Section 38, Prompt Corrective Action, of the FDI Act
requires federal regulators to place depository institutions into one of five categories on
the basis of their capital levels and mandates increasingly severe restrictions and
supervisory actions as an institution’s capital condition deteriorates. 3 The section further
requires regulators to define capital- level criteria for four of the five categories. The four
categories are identified as well capitalized, adequately capitalized, undercapitalized, and
significantly undercapitalized. Regulators must also set the threshold for the fifth
category, which is identified as critic ally undercapitalized, at no less than 2 percent of
tangible equity capital. 4 Section 38 establishes a system of restrictions and mandatory
supervisory actions that are to be triggered by an institution’s capital levels. For
example, regulators are required to obtain capital restoration plans from undercapitalized
institutions and to monitor the implementation of approved plans.

The regulators are generally required to close critically undercapitalized institutions
within a 90-day period. In addition, without the FDIC’s prior written approval,
section 38 restricts depository institutions in the three lowest capital categories from
engaging in certain activities such as acquisition of branches or new lines of business that
could increase the risk of losses to the deposit insurance funds.

The second part of the framework, Section 39, Standards for Safety and Soundness,
directs regulatory attention to the non-capital areas of an institution’s activities as they
relate to safety and soundness. The section requires regulators to develop and implement
safety-and-soundness standards in three areas: (1) operations and management; (2) asset

3
  A bank’s primary federal regulator is determined by the bank’s charter and the status of membership in
the Federal Reserve System. The FDIC is the primary federal regulator for state-chartered banks that are
not members of the Federal Reserve System. The Office of the Comptroller of the Currency (OCC) is the
primary federal regulator for all national banks. The Board of Governors of the Federal Reserve System
(FRB) is the primary federal regulator for state-chartered banks that are members of the Federal Reserve
System. The Office of Thrift Supervision (OTS) is the primary federal regulator for federal and state-
chartered savings associations.
4
  See Appendix V for a glossary of terms.
                                                       2
quality, earnings, and stock valuation; and (3) compensation. See Appendix III for
additional background discussion of sections 38 and 39.


RESULTS OF AUDIT

The FDIC generally used PCA directives as part of the supervisory process, in
conjunction with other supervisory actions, once institutions’ capital levels reached
designated thresholds. 5 Specifically, the FDIC used PCA directives in 8 (7 failed and 1
open) of 11 institutions that we reviewed, and its use of PCA served to prevent or reduce
losses to the deposit insurance funds. Prior to the enactment of section 38, there was no
mandate to close an institution before its capital was depleted. However, this section
generally instituted a requirement that regulators close institutions when their tangible
equity drops to 2 percent or less of their total assets. Because of PCA directives,
insurance fund losses were prevented in two institutions when other institutions acquired
them. In four other institutions, insurance fund losses were reduced when institutions
were closed before they became insolvent.

PCA directives were used in 8 of 11 institut ions in our sample; however, we identified a
number of factors that delay the use of section 38 and impact the effectiveness of its
capital-related provisions. Specifically:

        •   PCA’s focus is on capital, and because capital can be a lagging indicator of an
            institution’s financial health, a bank’s capital can remain in the “well to
            adequate” range long after its operations have begun to deteriorate from
            problems with management, asset quality, or internal controls. Our review of
            seven failed institutions for which the FDIC issued PCA directives showed
            that for those seven cases, one or more examinations revealed deteriorating
            conditions in various aspects of bank operations before capital began to
            deteriorate.

        •   Capital ratios reported by institutions in their Call Reports did not always
            reflect actual financial conditions. Capital ratios for PCA purposes are
            reported every quarter by institutions in their Call Reports. However, apart
            from some edits and validation checks, the FDIC verifies the accuracy of this
            information only during examinations. Consequently, depending on whether
            an institution’s examination cycle is 12 or 18 months, erroneous or
            intentionally misleading financial information may go undetected by the FDIC
            for a period of a year or more. We observed that for nine institutions, the
            FDIC lowered the capital categories reported by the banks in Call Reports by
            one or more levels during examinations.

        •   Institutions increased their capital before or after the issuance of PCA
            directives and thus avoided implementation of PCA directives or closure.

5
 Throughout this report, we use the term PCA directive to mean a Notice of Capital Category or a PCA
directive issued to the institutions. Both are used to implement section 38 provisions.
                                                        3
           Various means were used to increase capital – assets were sold, income was
           transferred from another affiliate, in-kind capital was contributed, and cash
           was injected. These forms of capital infusion are accepted business practices,
           and additional capital strengthens the financial condition of institutions.
           Infusions can, nevertheless, temporarily delay the institutions’ capital levels
           from triggering PCA directives. In other cases, infusions can increase the
           capital levels above the threshold after a PCA directive has been issued.

       •   The current method of computing capital does not take into account risks
           related to subprime loans. That is, the federal banking regulators currently do
           not require institutions in their Call Reports to risk-weight subprime loans
           commensurate with the risks associated with those loans. Consequently, the
           capital ratios reported in Call Reports for institutions engaged in subprime
           lending might be overstated, thus delaying the initiation of PCA provisions.

Although the primary focus of section 38 is capital, sections 38 and 39 also provide for
certain actions based on non-capital factors to facilitate the issuance of PCA directives or
to address non-capital problems. Specifically, section 38(g) allows regulators to
reclassify the capital categories of institutions based on non-capital factors. However, the
FDIC did not use this provision for any of the institutions in our sample. Also, section
38(f)(2)(F) authorizes the regulatory agencies to require an institution to improve
management when the regulators consider management to be deficie nt. The FDIC used
this provision in 2 of the 11 institutions we reviewed. Finally, section 39 provides for
regulators to require a compliance plan from institutions when regulators identify
problems with operations, management, asset quality, earnings, stock valuation, and
compensation. The FDIC used this provision in 1 of the 11 institutions. Our analyses of
the sections indicated that these provisions do not provide objective or measurable
criteria for implementation and, in some instances, placed restrictions on their use.
Consequently, these provisions were seldom used, and the FDIC may have lost
opportunities to initiate additional supervisory actions to address problems.


SECTION 38 CAPITAL-RELATED PROVISIONS

PCA DIRECTIVES WERE PART OF THE FDIC’S SUPERVISORY PROCESS
AND PREVENTED OR REDUCED LOSSES TO THE DEPOSIT INSURANCE
FUNDS

Of the 11 institutions that we reviewed, the FDIC used PCA directives as part of the
enforcement process in 8 of these institutions after their capital levels reached designated
thresholds. Use of the PCA directives served to prevent or reduce losses to the deposit
insurance funds. Section 38(c) created a capital-based framework for bank and thrift
oversight that places financial institutions into one of five capital categories. Section 38
also restricts depository institutions in the three lowest capital categories from engaging
in certain activities such as acquisition of branches or new lines of business that could
increase the risk of losses to the federal deposit insurance funds. Further, this section
                                              4
also established a system of mandatory supervisory actions that are to be triggered at the
three lowest capital levels—undercapitalized, significantly undercapitalized, and
critically undercapitalized.

Table 1 identifies the eight institutions for which the FDIC used PCA directives and the
status of the institutions.

Table 1: Banks for Which PCA Directives Were Used
           Name                  PCA Capital Level at Which           Date of Institution’s
                                   PCA Directive Was First             PCA     Status
                                              Used                   Directive
Victory State Bank                      Undercapitalized              11/6/98    Closed – 3/26/99
Bank of Honolulu                 Significantly Undercapitalized       8/4/00    Closed – 10/13/00
Bank of Alamo                      Critically Undercapitalized        8/29/02    Closed – 11/8/02
Salt Lick Deposit Bank             Critically Undercapitalized        4/17/01   Acquired – 5/9/01
Bank of Sierra Blanca            Significantly Undercapitalized       8/16/00    Closed – 1/18/02
Home State Bank                  Significantly Undercapitalized       5/16/00  Acquired – 12/29/00
First Alliance Bank & Trust             Undercapitalized              7/6/00     Closed – 2/2/01
Open Bank # 2                           Undercapitalized             12/31/01         Open
Source: OIG analysis of institutions for which PCA directives were used.

Of the remaining three institutions, a PCA directive was not used for one failed
institution, the Bank of Falkner, because it was closed immediately after the detection of
accounting improprieties. The other two institutions are open, and the FDIC had not used
PCA directives because the institutions’ capital levels had not reached the thresholds that
require such action.

Use of PCA directives served to prevent or reduce losses to the deposit insurance funds.
Prior to the enactment of section 38, there was no mandate to close an institution before
the institution’s capital was depleted. Section 38 generally requires regulators to close
institutions when their tangible equity drops to 2 percent or less of their total assets,
thereby reducing instances of seriously troubled institutions compounding their losses by
continuing to operate. Therefore, institution management sought a buyer for institutions
with less than 2 percent tangible equity, which prevented losses to the deposit insurance
funds. When institutions with less than 2 percent tangible equity were closed, the
decision was made to close the banks before they became insolvent, thus minimizing
losses to the deposit insurance funds.

One of the factors that section 38 was meant to address was excessive forbearance of
federal regulators. Prior to enactment of this section, the banking regulators had wide
discretion in choosing the severity and timing of enforcement actions that they took
against depository institutions with unsafe and unsound practices. In its report issued in
1991, the U.S. General Accounting Office (GAO) noted that regulators had a common
philosophy of trying to work informally and cooperatively with troubled institutions. 6
This approach, in combination with regulators’ wide discretion in the oversight of
6
 See GAO/GGD-91-26, entitled Bank Supervision: Prompt and Forceful Regulatory Action Needed, dated
April 15, 1991.
                                                5
financial institutions, had resulted in enforcement actions that were neither timely nor
forceful enough to (1) correct unsafe and unsound banking practices or (2) prevent or
minimize losses to the deposit insurance funds.

In addressing this situation, section 38 removed some regulatory discretion by requiring
stringent action to be taken against critically undercapitalized institutions. After an
institution becomes critically undercapitalized, PCA gives the regulators 90 days to either
place the institution into receivership or conservatorship or take other action that would
better prevent or minimize long-term losses to the insurance fund s.

In addition, in its report issued in 1996, the GAO stated that according to regulators and
banking industry analysts, section 38 provides depository institutions with strong
incentives to raise additional equity capital. 7 These officials explained that financial
institutions were concerned about the potential ramifications of becoming
undercapitalized. Also, once the implementing regulations were issued, depository
institutions had clear benchmarks as to the levels of capital they needed to achieve to
avoid mandatory regulatory intervention.

Attempting to compute savings resulting from the use of PCA directives would be very
complex and require making numerous assumptions and estimations. However, the
requirement that institutions be closed within 90 days of reaching 2 percent tangible
equity provides a means to observe whether the institutions were acquired or closed
before they became insolvent. Of the eight failed institutions in our sample, the FDIC
used PCA directives in seven institutions as discussed earlier. Our observations
regarding (1) the time lapse between the use of PCA directives and the closure or
acquisition and (2) capital available at the time the banks were closed are presented in
Table 2.

Table 2: Time Lapse Between Use of PCA Directives and Closure/Acquisition and
Capital Available at the Time of Closure
            Name            Date of PCA     Acquisition/      Elapsed   Capital at
                             Directive     Closure Date         Time   the Time of
                                                                         Closure *
Victory State Bank            11/6/98     Closed – 3/26/99    5 months   $689,729
Bank of Honolulu               8/4/00     Closed – 10/13/00   2 months  $1,965,157
Bank of Alamo                 8/29/02     Closed – 11/8/02    2 months  $3,314,582
Salt Lick Deposit Bank        4/17/01     Acquired – 5/9/01   1 month      N/A
Bank of Sierra Blanca         8/16/00     Closed – 1/18/02   17 months  ($208,385)
Home State Bank               5/16/00    Acquired – 12/29/00 7 months      N/A
First Alliance Bank & Trust    7/6/00      Closed – 2/2/01    7 months   $510,391
Source: OIG analysis of institutions in which the FDIC issued a PCA directive.
* Amounts shown in this column were as of the date of bank closure. The final loss to the insurance funds
depends on the proceeds received from the sale of assets available at closure.



7
 See GAO/GGD 97-18, entitled Bank and Thrift Regulation – Implementation of FDICIA’s Prompt
Regulatory Action Provisions, dated November 21, 1996.
                                                  6
Analysis of these banks indicates that six out of seven institutions closed within 7 months
after the FDIC used a PCA directive. In the case of the seventh bank, the Bank of Sierra
Blanca, the bank’s directors made three capital injections over a 9- month period, thus
extending the eventual closure to 17 months. Of the 7 failed banks, two banks were
acquired by other institutions, without financial assistance from the FDIC, after PCA
directives were used and the directives thus served to prevent losses to the insurance
funds. Of the remaining five banks, four were closed after PCA directives were used but
before they became insolvent. For the remaining bank—Bank of Sierra Blanca—the
FDIC gave 45 days to submit a revised capital plan after the bank was identified as
“critically undercapitalized.” However, a subsequent review by the bank’s data
processing servicer led to the identification of $452,000 in liabilities that had not been
properly reflected on the bank’s balance sheet. As a result, the bank’s capital had eroded
by the time the bank was closed.

In summary, the FDIC was able to prevent fund losses in two banks that were acquired
by other institutions and minimize the losses for four banks by closing them before they
became insolvent. Had it not been for the PCA provisions, which required action by the
regulators when the tangible capital dropped to 2 percent, there was a possibility that
these banks would have been allowed to operate until their equity was totally depleted or
they became insolvent.

       By setting the closure of banks to 2 percent capital instead of insolvency, troubled banks
       begin their last-ditch efforts to recapitalize or merge earlier than they did prior to FDICIA.
       This increases the chances that their efforts to find a private sector solution and avoid
       failure will succeed.
                                                   Source: FDIC Division of Insurance and Research




OTHER SUPERVISORY ACTIONS TAKEN PRIOR TO THE ISSUANCE OF
PCA DIRECTIVES

During the periods leading up to the issuance of PCA directives in the banks we
reviewed, the FDIC addressed problems that were initially not related to capital. Our
review showed that for institutions with safety and soundness concerns identified as well
capitalized or adequately capitalized, PCA does not afford the FDIC with an immediate
supervisory remedy. PCA directives can be issued only after a problem institution’s
capital category crosses the undercapitalized threshold, which our analysis has shown
trails the first identification of significant safety and soundness issues. However, the
FDIC initiated other supervisory actions to address various problems prior to a bank’s
becoming undercapitalized. In fact, the supervisory actions taken before PCA directives
were issued also included some of the capital-related provisions in section 38.

As discussed in the next section of our report, capital is a lagging indicator, and the
institutions in our sample of banks first exhibited problems unrelated to their capital.
However, the FDIC and the states addressed these problems through the use of other
available supervisory actions before issuing PCA directives such as Board Resolutions,
                                                 7
Memorandums of Understanding (MOU), Cease and Desist Orders (C&D), State
Commitment Letters, and written agreements. PCA directives were issued for 8 of the 11
banks in our sample. The CAMELS ratings provide a clear indication of the breadth of
the problems these banks were experiencing before their capital conditions deteriorated to
the point where PCA directives were issued. Examples of the problems follow:
    • Deficiencies related to management and Board of Directors oversight.
    • Lack of adequate internal control processes and procedures.
    • Lack of or inadequate written loan policies and procedures.
    • Unsound lending practices.
    • Inadequate provisions for Allowance for Loan and Lease Losses. 8
    • Violations of laws and regulations.

Table 3 provides the CAMELS rating and the chronology of supervisory and PCA
actions initiated by the examiners for the eight banks, including the dates on which these
actions became effective.




8
 The Interagency Policy Statement on Allowances for Loan and Lease Losses (ALLL) Methodologies and
Documentation for Banks and Savings Associations, dated July 25, 2001, clarifies that the board of
directors of each institution is responsible for ensuring that controls are in place to determine the
appropriate level of ALLL.
                                                        8
Table 3: Supervisory Actions Taken Prior to PCA Directives
Bank Name                                  Supervisory Actions
Victory          4/344522       4/344522
State Bank      C&D Order         PCA
                  7/18/98        11/6/98
Bank of            MOU          3/333423      4/344433 (V)*       5/455543     5/555555
Honolulu           4/97         2nd MOU        section 8(g)      C&D Order       PCA
                                  6/98        Suspension &         1/10/99      8/4/00
                                              Removal Order
                                                 12/18/98
Bank of          3/233232       3/233132         4/344322         5/555555     5/555555
Alamo              MOU          2nd MOU            C&D           Emergency       PCA
                  11/8/99        9/26/00          2/4/02            C&D         8/29/02
                                                                   8/27/02
Salt Lick        4/344333       5/555533         5/555533
Deposit          Safety &       Proposed         PCA***
Bank            Soundness        C&D**            4/17/01
               Plan 2/18/01      2/28/01
Bank of          2/123232       4/455432         5/555555         5/553553     5/554555
Sierra             State          C&D              PCA              PCA          PCA
Blanca         Commitment        5/3/00           8/16/00          5/17/01     11/20/01
                   Letter
                  6/25/98
Home State       5/555543       5/555543         5/555554
Bank               C&D            PCA              PCA
                  2/4/00         5/16/00          9/27/00
First            4/324443       4/434432         5/535542         5/535542     5/535542
Alliance           C&D          2nd C&D            PCA              PCA          PCA
Bank &            10/8/98        9/6/99           7/6/00           8/4/00       1/4/01
Trust
Open Bank        3/233231         3/433131       2/232121         4/454442      4/454442
#2                 MOU              Board      Revised Board        PCA           C&D
                  2/19/98        Resolution     Resolution        12/31/01       5/15/02
                                   4/27/99       10/27/99
Source: OIG analysis of institutions in which PCA directives were used.
* (V) Visitation
** The bank refused to stipulate to the C&D Order. See discussion that follows.
*** The bank appealed the PCA directive on 4/30/01.

The supervisory actions taken in advance of PCA directives included capital-related
provisions similar to those that are mandated under section 38, demonstrating the
flexibility of these supervisory tools as well as the regulators’ awareness of the
developing problems related to capital conditions. Supervisory actions, both MOUs and
C&Ds, contained section 38-type provisions for seven of eight banks listed in Table 3 for
which the FDIC used the PCA directives. Specific capital-related provisions in
supervisory actions taken prior to PCA directives follow:

•   Maintenance of Tier 1 capital at or above the threshold for the “well capitalized”
    category.
•   Requirements to submit capital plans and abide by any conditions stipulated within
    the plans.
•   Prohibitions against declaring dividends without the FDIC’s consent.

                                                   9
       While sections 38 and 39 are a valuable part of DSC’s financial institution
       supervision/enforcement processes, similar, if not the same results can be achieved
       through the use of various provisions of section 8 of the FDI Act. Relevant provisions
       include the termination of insurance, cease and desist actions, temporary cease and
       desist actions, and suspension and removal actions. Because of the broader scope of
       corrective actions achieved by use of section 8(b), DSC more commonly utilizes section
       8(b) in addressing problem institution situations. Section 8(b) orders typically include
       provisions covering the various requirements and limitations of section 38, even when
       the subject institution would not otherwise be subject to the PCA enforcement
       framework.
                                   Source: FDIC Division of Supervision and Consumer Protection



       PCA is most effective in the circumstances in which an institution is already within a capital
       category that allows for the issuance of a PCA directive and where the problems to be
       addressed are essentially capital driven. When the institution’s problems include other
       issues, such as the need to cease violations or correct unsafe or unsound practices or for
       affirmative relief, other enforcement remedies--cease and desist orders, for example--are
       more appropriate. Experience has been that while PCA should be “prompt,” it is often as
       quick to get a cease and desist or other order by consent in as little time, with broader
       relief. In addition, the FDIC is not constrained by the requirements of PCA regarding capital
       levels when pursuing cease and desist actions.
                                                                        Source: FDIC Legal Division



FACTORS IMPACTING THE EFFECTIVENESS OF SECTION 38
CAPITAL-RELATED PROVISIONS

During our review, we observed that a number of factors impact the effectiveness of PCA
provisions. The foundation of section 38 is capital, which can be a lagging indicator of
an institution’s operational and financial problems. In addition, use of PCA directives
depends on the accuracy of capital ratios reported in Call Reports. However, we noted
that capital ratios reported in Call Reports are not always reliable. Further, institutions
increased their capital before or after issuance of PCA directives. Finally, risks related to
subprime loans are not accounted for in the current method of computing capital. All of
these factors delay the use of PCA directive s.


Capital Can Be a Lagging Indicator

Section 38 has an inherent limitation because the foundation for its provisions is capital,
which can be a lagging indicator of an institution’s operational and financial health.
Traditionally, capital has been a focus of regulatory oversight because it provides an
important cushion to absorb an institution’s losses. Although capital is an objective
measure of financial health, it may not show signs of decline until a bank has experienced
substantial deterioration in its operations. Problems related to an institution’s asset
quality, management, and internal controls can occur years before capital is adversely
affected. As we discussed earlier, capital is the centerpiece of section 38 provisions, and
the actions provided for under that section are tied to declining capital levels.
                                                10
Our review of the eight institutions for which the FDIC issued PCA directives showed
that, in all cases, one or more examinations revealed deteriorating conditions in various
aspects of bank operations before capital began to deteriorate. Because the problems
identified were initially unrelated to capital, the FDIC took other supervisory actions to
address those problems. For purposes of our analysis, we defined the onset of problems
in an institution when the bank’s CAMELS composite rating was first determined to be a
3, 4, or 5. Seven of the eight banks were considered to be well capitalized when they
were initially assigned composite ratings of 3 or worse. Consequently, there is usually a
time lag between the initial identification of a bank’s problems and issuance of PCA
directives. Table 4 shows the eight institutions and the problems identified by examiners,
their capital category at the time problems were identified, whether other supervisory
actions were taken prior to PCA, and the time between the initial identification of
problems and subsequent issuance of PCA directives.

Table 4: Analysis of Problems Identified, Capital Categories, Supervisory Actions,
and Time Lapse Between Identification of Problems and PCA Directives
                                Initial Identification of Problems
         Name                 Asset        Problems          Capital               Other           Time Between
                             Quality      Related to        Category            Supervisory        CAMELS 3, 4,
                            Problems Management               When              Actions Prior      or 5 and PCA
                                          & Internal        Problems              to PCA             Directive*
                                           Controls       Were Initially
                                                            Identified
Victory State Bank              Yes             Yes              Well                Yes              1.5 years
Bank of Honolulu                Yes             Yes              Well                Yes               9 years
Bank of Alamo                   Yes             Yes              Well                Yes               3 years
Salt Lick Deposit Bank          Yes             Yes              Well                Yes               1 year
Bank of Sierra Blanca           Yes             Yes              Well                Yes              1.5 years
Home State Bank                 Yes             Yes              Under               Yes               1 year
First Alliance Bank &           Yes             Yes              Well                Yes              2.5 years
Trust
Open Bank #2                    Yes             Yes               Well               Yes              3.5 years
Source: OIG analysis of institutions in which the FDIC issued a PCA directive.
*This information was computed using the date for which the examiners assigned a composite rating of 3,
4, or 5 for the first time and the date of the first PCA directive.

In reviewing the eight banks for which PCA directives were used, we observed that in all
cases, the examiners identified deteriorating asset quality, which resulted from
deficiencies related to bank management and/or board oversight. Examiners identified
the following examples of deficiencies related to deteriorating asset quality:

    •   problems related to one person dominating the institution,
    •   weak or inadequate board oversight,
    •   insider lending or related abuses, and
    •   lack of expertise and/or qualified personnel.



                                                   11
Although Open Banks # 1 and # 3 were not subject to PCA directives, their component
ratings for capital were 3 and 5, respectively (see Tables 7 and 6). Although examiners
also identified problems related to management and/or board oversight for these two
banks, the problems were due to the control exercised by their holding companies.
These types of deficiencies, with specific examples taken from our case studies, are
discussed in Appendix IV of the report.


Capital Ratios Reported in Call Reports Are Not Always Reliable

The capital ratios reported by institutions in their Call Reports did not always reflect
actual financial conditions. Specifically, for 9 of the 11 banks that we reviewed, we
observed that during examinations, the FDIC lowered the capital categories reported by
the banks in Call Reports by one or more levels. In addition, two earlier reports that we
issued pointed out problems with the valuation of assets and the delay in determining the
fair value of assets and the appropriate capital category for implementing PCA
provisions. 9 The institutions report their capital ratios every 3 months in their Call
Reports. However, apart from some edits and validation checks, the FDIC verifies the
accuracy of the information submitted in Call Reports only during examinations.

Consequently, depending on whether an institution’s examination cycle is 12 or 18
months, erroneous or intentionally misleading financial information may go undetected
by the regulators for a period of a year or more. During the time between examinations,
an institution that is experiencing worsening financial or operational problems may be
successful in forestalling capital-driven regulatory actions by submitting overly
optimistic or inaccurate information, thereby postponing the initiation of PCA directives.

The FDIC verifies the accuracy of information reported by institutions during
examinations or special visitations. Under Section 7 of the FDI Act, codified to 12
U.S.C. §1817, FDIC-supervised institutions submit quarterly Call Reports to the FDIC.
The accuracy of a bank’s capital ratios is based on the fair value of its assets, an
assessment of the risks in a bank’s portfolio as judged by its managers, and the adequacy
of a bank’s ALLL. During the past few years, there have been repeated instances where
troubled institutions did not fully disclose their true financial condition in Call Report
information. The consequences of these situations have been large losses to the insurance
funds.

•   We concluded in our March 2002 report on the effectiveness of PCA that, in the cases
    of Superior Bank, First National Bank of Keystone, and Pacific Thrift & Loan
    Company, PCA provisions had not been implemented in a timely manner. All three
    institutions had a high concentration of residual assets and either valued those assets
    using optimistic assumptions and/or failed to discount future cash flows that inflated
    the institutions’ income and capital. Therefore, the capital levels for those three
9
 FDIC OIG Audit Report No. 02-013, The Effectiveness of Prompt Corrective Action Provisions in
Preventing or Reducing Losses to the Deposit Insurance Funds, dated March 26, 2002, and Audit Report
No. 03-017, Material Loss Review of the Failure of the Connecticut Bank of Commerce, Stamford,
Connecticut, dated March 10, 2003.
                                                    12
     institutions were above the minimum levels required by the regulators to invoke
     section 38 actions because a fair value of the residuals had not been determined. 10

•    Our review of the failure of the Connecticut Bank of Commerce (CBC) showed that
     in December 1996, the bank’s capital category reached an acceptable position of
     “adequately capitalized” and remained in this category until 1999, when it became
     “well-capitalized.” Because CBC masked the true nature of certain financial
     transactions, examiners did not determine its actual financial condition until a full
     investigation was performed subsequent to the March 2001 examination. Once the
     bank’s loan schemes were uncovered, the examiners concluded that CBC was
     critically undercapitalized, and it was closed on June 26, 2002. 11

In addition, for 9 of the 11 banks reviewed, we noted instances where the capital
categories reported by the banks in their Call Reports overstated the banks’ actual capital
conditions. This observation is based on our comparison of capital ratios reported by the
banks in their Call Reports with ratios developed by examiners during examinations for
corresponding periods. Table 5 shows the 9 institutions for which examiners lowered the
capital category.




10
   FDIC OIG Audit Report No. 02-013, entitled The Effectiveness of Prompt Corrective Action Provisions
in Preventing or Reducing Losses to the Deposit Insurance Funds, dated March 26, 2002. On
November 29, 2001, federal regulators issued Financial Institution Letter 99-01 entitled “Final Rule to
Amend the Regulatory Capital Treatment of Recourse Arrangements, Direct Credit Substitutes, Residual
Interests in Asset Securitizations, and Asset Backed and Mortgage-Backed Securities,” which addressed the
capital requirements for residual assets.
11
   FDIC OIG Audit Report No. 03-017, entitled Material Loss Review of the Failure of the Connecticut
Bank of Commerce, Stamford, Connecticut, dated March 10, 2003.
                                                     13
Table 5: Institutions for Which Examiners Lowered Capital Categories
       Name              Call    Capital Category Reported        Capital Category
                        Report         by Institutions       Determined by Examiners
                         Date
Victory State Bank      9/30/98       Undercapitalized       Critically Undercapitalized
Bank of Honolulu        9/30/98       Well Capitalized         Adequately Capitalized
                        6/30/00       Well Capitalized     Significantly Undercapitalized
Bank of Alamo           3/31/02       Well Capitalized       Critically Undercapitalized
Bank of Falkner        6/30/00*       Well Capitalized       Critically Undercapitalized
Salt Lick Deposit     12/31/00*       Well Capitalized       Critically Undercapitalized
Bank
                        6/30/00         Significantly        Critically Undercapitalized
Bank of Sierra                        Undercapitalized
Blanca                 12/31/00       Well Capitalized            Undercapitalized
                        9/30/01       Undercapitalized       Critically Undercapitalized
                        6/30/99    Adequately Capitalized         Undercapitalized
Home State Bank        12/31/99    Adequately Capitalized    Critically Undercapitalized
                        6/30/00       Undercapitalized       Critically Undercapitalized
Open Bank # 2           9/30/01       Well Capitalized            Undercapitalized
Open Bank # 3          12/31/01       Well Capitalized         Adequately Capitalized
Source: OIG Analysis of 11 institutions in our sample.
* Examiners used more current data in addition to Call Report data.

We noted that for the Bank of Sierra Blanca and Home State Bank, examiners lowered
each bank’s capital category on three occasions. The Bank of Honolulu had its capital
category reduced twice, and the remaining six banks had their categories lowered once.
Most (about 71 percent) of the downward revisions in capital categorie s in our sample
involved lowering a bank’s category two or more levels. Notably, the capital categories
for the Bank of Alamo, Bank of Falkner, and Salt Lick Bank were reduced to the
maximum extent possible, four levels – from “well-capitalized” to “critically
undercapitalized.”


Institutions May Delay Implementation of PCA Directives or Closure by Increasing
Capital

During our review, we determined that several institutions increased the ir capital before
or after issuance of PCA directives, thereby delaying implementation of the directives or,
in some cases, closure. Institutions or their holding companies used various ways to
increase capital, including selling assets, transferring income from another affiliate,
contributing in-kind capital, and injecting capital in cash. These forms of capital infusion
are accepted industry practices, and additional capital strengthens the financial condition
of institutions. The infusions, nevertheless, can delay the initiation of PCA directives or
raise capital levels above capital thresholds, causing PCA directives to be withdrawn
without correcting the underlying problems at the institutions.

                                                    14
Sale of Assets : The Bank of Honolulu serves as an example of an institution in our
sample that sold assets to increase its capital ratios before PCA directives were issued.
The bank had not achieved a CAMELS composite rating better than a “3” since its
September 30, 1991 joint examination. In two examinations and a visitation occurring
between January 1999 and January 2000, examiners noted that the Bank of Honolulu
maintained its capital through asset shrinkage. In other words, the bank sold assets to
increase its capital. This bank’s capital category was adequately capitalized during the
January 1999 examination, the following visit in June 1999, and an examination in
January 2000. The FDIC issued a PCA directive in August 2000 when the FDIC
determined the bank’s capital level to be “significantly undercapitalized.”

Transfer of Income from Affiliate: In Open Bank # 1, one of the three open banks in
our sample, the examiners noted that the bank benefited from a transfer of income from
an affiliate owned by the institution’s parent. In fact, the examination report stated:

       High earnings are, in part, due to transfer of income from affiliates. For example,
       [Open Bank # 1] received $73 million in mortgage servicing income in 1999. However,
       this bank does not perform any servicing and has min imal involvement in the programs.
       ... This example illustrates that earnings of the bank are dependent on the parent’s policy
       for allocating earnings among subsidiaries. Currently, [Open Bank # 1] is the beneficiary
       of the parent’s policy.

Even after the transfer of such a substantial amount, Open Bank # 1 reported a net
income of just $48.6 million for 1999. Additionally, examiners determined that net
income was overstated by approximately $12.5 million because of (1) inappropriate
recognition of $4 million in income, (2) failure to recognize $4 million in operating
losses, and (3) underfunding of the ALLL by approximately $4.5 million.

Assuming that the $73 million transfer of income was not made, the institution would
have incurred a net loss of $36.9 million, computed as follows:

Reported net income                                    $48.6 million
Less: Operating losses not recognized                    (4.0 million)
      Income inappropriately recognized                  (4.0 million)
      Underfunded ALLL                                    4.5 million)
Net income before adjustment for transfer
of income from affiliate                                 36.1 million
Less: Transfer of income from affiliate                 (73.0 million)

Net Loss                                               ($36.9 million)

This example illustrates how a parent company radically changed the financial results of
its subsidiary institution from a loss of $36.9 million in 1 year to a net income of
$48.6 million, through a transfer of income from an affiliate. In addition, the parent
contributed capital in-kind, discussed below, which further increased the institution’s
capital. Without the transfer of income and contribution of in-kind capital, it is likely
that this institution would have been subject to a PCA directive.
                                               15
       This affiliate transaction was considered a form of parent company support for the
       financial institution. Had the income from the affiliate not transferred, it would have
       required another form of parent company support to support growth, such as a direct
       capital injection.

       DSC fur ther clarified that the bank included the transferred income in its reported income
       in the Call Report. This transfer should not have been reported as income on the Call
       Report. The FDIC has long taken the position that income transfers by a holding
       company to a bank should be reported as capital contributions. Banks should not report
       in income any income that arose from assets owned by an affiliate (other than its own
       subsidiary) or was otherwise generated by an affiliate that its parent company transfers
       to it. Otherwise, the parent company could conceivably make the bank’s earnings be any
       number the parent wanted it to be.
                                    Source: FDIC Division of Supervision and Consumer Protection

In-Kind Capital Contribution: Open Bank # 1 was also the beneficiary of an in-kind
capital contribution made by its parent. During 1999, this bank’s capital level was less
than satisfactory. In response, Open Bank # 1’s parent made an in-kind contribution from
two of its subsidiaries into the bank, representing a contribution of $41.5 million. This
amount included $38.2 million in assets from one of the parent’s subsidiaries and
consisted of a Class C retained interest on credit card securitizations. The assets were
contributed at book value without an independent market value appraisal. The remaining
$3.3 million consisted of computer software and office equipment owned by another
subsidiary of the parent, which was also contributed without an independent market value
appraisal. This subsidiary continued to use these assets without reimbursing the bank.

These examples of transfers from affiliates clearly illustrate how a parent holding
company can manipulate the net income and capital levels of a bank to prevent or delay
the implementation of PCA directives.

       This affiliate transaction was considered a form of parent company support for the
       financial institution. Had the in-kind contribution not been made, it would have required
       another form of parent company support to support growth, such as a direct capital
       injection.
                                   Source: FDIC Division of Supervision and Consumer Protection

Contribution of Capital After a PCA Directive: Based on a review of the Bank of
Sierra Blanca’s June 30, 2000 Call Report, the FDIC determined the bank to be
significantly undercapitalized. The FDIC issued a PCA directive to the bank in August
2000. The bank’s directors then made three capital injections between October 2000 and
June 2001. Initially, the directors made a capital injection of $514,000 in October 2000.
The directors injected an additional $301,000 in November 2000. These two capital
injections improved the bank’s capital position, and the bank reported itself well
capitalized as of December 31, 2000.

In April 2001, the state conducted an examination and again determined the bank’s
capital level to be undercapitalized. In June 2001, the directors injected an additional
$100,000 of capital, and the bank became adequately capitalized. However, anticipated

                                               16
loan loss recoveries did not materialize for the bank, and in November 2001, the FDIC
notified the bank’s board that the bank was critically undercapitalized. On January 17,
2002, the FDIC and the state met with the board and directed an injection of $1.5 million
in new capital, which the board was unable to meet. The state closed the bank the next
day.

       Capital contributions (either directly or indirectly through the transfer of income from an
       affiliate) are almost always good for the FDIC—even if the institution ultimately fails.
       Capital contributions increase the probability that the institution will survive and reduce
       FDIC losses in the event of failure.
                                   Source: FDIC Division of Supervision and Consumer Protection

We agree that capital contributions will almost always serve to protect the insurance
funds. However, such contributions in the form of sale s of assets or in-kind capital
contributions without independent valuations may not always serve to prevent or reduce
losses to the insurance funds. For example, an institution may sell its quality income
producing assets to bring in additional capital, thus delaying the use of PCA directives
and/or closure. Also, with in-kind contributions, the quality of the contributions may be
suspect if bank management does not independently value these assets. In both cases, the
transactions delay closure, and remaining assets ma y deteriorate further, resulting in
additional losses to the insurance funds.


Risks Related to Subprime Loans Are Not Accounted for in the Current Method of
Computing Capital

The current method of computing capital does not take into account risks related to
subprime loans. Specifically, the federal banking regulators currently do not require
institutions in their Call Reports to risk-weight subprime loans commensurate with the
risks associated with those loans. Consequently, the capital ratios reported in Call
Reports for those institutions may be inflated, thus delaying the initiation of PCA
directives in banks that are experiencing problems.

The FDIC collects, corrects, updates, and stores Call Reports submitted by institutions it
supervises on a quarterly basis. Call Reports are a widely used source of financial data
regarding a bank's condition and the results of its operations. Under the banking
agencies’ risk-based capital guidelines, assets and credit equivalent amounts of
derivatives and off-balance sheet items are assigned to one of several broad risk
categories according to obligor, or, if relevant, the guarantor or the nature of the
collateral. The resulting weighted values from each of the risk categories are added
together, and this sum is the bank’s total risk-weighted assets, which comprises the
denominator of the risk-based capital ratio. The risk-weights associated with each asset
are included in Schedule RC-R – Regulatory Capital, which is part of the Call Report.

All three open institutions in our sample had subprime loans in their portfolio. As early
as 1997, regulators were cautioning financial institutions regarding the potential risk
associated with subprime lending. However, there are no federal laws, regulations, or
                                               17
rules concerning subprime lending. In March 1999, the Federal Financial Institutions
Examination Council (FFIEC) 12 issued the Interagency Guidelines on Subprime Lending.
The guidelines defined subprime lending as “extending credit to borrowers who exhibit
characteristics indicating a significantly higher risk of default than traditional bank
lending customers” and required regulators to evaluate the capital levels at examinations
of banks engaged in subprime lending. 13 In January 2001, the FFIEC issued Expanded
Guidance for Evaluating Subprime Lending Programs (Expanded Guidance). This
Expanded Guidance supplements the FFIEC guidelines issued in March 1999 and is
specifically tailored to institutions that have subprime lending programs with an
aggregate exposure greater than or equal to 25 percent of Tier 1 Capital. The Expanded
Guidance states that because subprime lending poses more risk than standard lending, it
is expected that capital levels would be at minimum one and a half to three times greater
than what is appropriate for non-subprime assets of a similar type. 14

Because of concerns relating to risks posed by subprime loans, and in an attempt to
identify additional sources of information related to subprime lending programs at
FDIC-insured institutions, the regulators proposed changes to the Call Report. On
May 31, 2000, the federal banking agencies published a notice for comment regarding the
inclusion of additional reporting items in the Call Report for subprime lending activities.
However, on December 9, 2002, the FFIEC voted to drop the proposal due to responses
from the industry and Congress. In making the decision to drop the proposal, the
agencies agreed with commenters that the industry lacks standard definitions for the
terms “subprime” and “program.” Thus, rather than impose an additional burden on
institutions through the proposed regulatory reporting requirement, the agencies
concluded that the examination process should continue to be the focal point for
supervising the subprime lending activities of banks and savings associations.
Consequently, under the current method of reporting, institutions do not risk-weight
subprime loans in their Call Reports as suggested by the Expanded Guidance, resulting in
inflated capital ratios that may delay initiation of a PCA directive.

Because the FFIEC decided not to require banks to use the higher risk weighting for
subprime loans in Call Reports and compliance with the Expanded Guidance is
voluntary, the FDIC cannot enforce the risk-weighting of subprime loans during
examinations. As a result, we observed a wide disparity between capital adequacy as
reported in the Call Reports and examiners’ CAMELS ratings. We also observed that
examination reports generally criticize institutions for non-compliance with the Expanded
Guidance and inadequate capital in relation to the risks associated with subprime loans.


12
   The FFIEC was established by the Congress to promote improved and consistent examination and
supervision policies and procedures among the five financial institution regulatory agencies. The FFIEC
includes representatives of the FDIC, FRB, OCC, OTS, and National Credit Union Administration
(NCUA).
13
   The FDI Act, Section 10(d), requires the appropriate federal banking agency to conduct annual full-
scope, on-site examinations of each insured depository institution.
14
   Potential long-term risks are protected against through higher capital requirements. ALLL absorb credit
losses, in the short term, over the current operating cycle, typically 12 months in accordance with the
Interagency Policy Statement on the ALLL, dated December 21, 1993.
                                                       18
Since the issuance of the Expanded Guidance in January 2001, examiners conducted two
examinations in Open Banks # 3 and # 1--banks that had subprime loans in their
portfolios. Information and comments from examination reports are provided below:

Table 6: Information from Two Examinations of Open Bank # 3
Examination Examination Assets/Deposits Capital          Capital                               CAMELS
 Start Date     as of Date    (in billions) Category    Category                                Rating
                                             per Call Determined
                                              Report        by
                                                       Examiners
   9/2001      12/31/2001*      $2.1/1.9       Well     Adequate                               5/555544
  11/2002       9/30/2002      $1.85/1.67      Well        Well                                5/555434
Source: OIG analysis of examination reports of Open Bank # 3.
* Because of significant deterioration identified during the examination, the examiners decided to use the
December 2001 financial information.

Although Open Bank # 3 received the worst possible rating for its capital component in
two consecutive examinations, its capital category for PCA purposes was “adequately
capitalized” and “well capitalized” during those examinations. However, the first
examination report stated that the institution had not implemented the Expanded
Guidance and that capital levels were inadequate under the Expanded Guidance. The
second examination report stated that capital was insufficient for the institution’s high-
risk profile and that the institution did not comply with the Expanded Guidance. Similar
observations were noted in the examination reports of Open Bank # 1.

Table 7: Information from Two Examinations of Open Bank # 1
Examination Examination Assets/Deposits Capital          Capital                               CAMELS
 Start Date    as of Date     (in billions) Category    Category                                Rating
                                             per Call Determined
                                              Report        by
                                                       Examiners
   4/2001       3/31/2001       $1.0/0.7       Well       Well                                 3/333322
   5/2002       3/31/2002       $0.9/0.7       Well       Well                                 3/333333
Source: OIG analysis of examination reports of Open Bank # 1.

The first examination report stated that although the bank was considered “well
capitalized” for PCA purposes, the above-average risk in loan and lease portfolios
demonstrated the need for higher capital. The report also stated that the institution had
not followed the Expanded Guidance. The second examination report stated that the
capital was marginally deficient to support the overall risk profile of the institution and
that the institution did not comply with the FFIEC Expanded Guidance.

While the FDIC criticized Open Banks # 3 and # 1 for their capital inadequacy and
non-compliance with the Expanded Guidance, it chose to enforce only the higher capital
provisions included in the Expanded Guidance in Open Bank # 2. The FDIC examined
this bank in November 2001 and determined that it was “undercapitalized” as of
September 30, 2001, although the bank was “well capitalized” as reported in the Call
                                                    19
Report. As of that date, the total assets and deposits were $1.92 billion and
$1.42 billion, respectively. The CAMELS rating assigned during this examination was
4/454442. Subsequently, in May 2002, the FDIC issued and the bank consented to a
Cease and Desist order that included the following provision:

       Submission of a capital plan to achieve/maintain an 8 percent Total Risk-based capital
       ratio based on 300 percent risk-weighting of loans, by September 30, 2002 and a 10
       percent Total Risk-based capital ratio by March 31, 2003.

By including this provision in the Cease and Desist Order, the FDIC effectively made the
higher risk-weighting for subprime loans a formal requirement although use of risk
weighting is only a guideline for the institutions and the examiners. It is not clear,
however, why this same strategy was not used in the other two open institutions.

The three open banks in our sample show the wide disparity between capital levels
reported by banks in their Call Reports and by examiners in CAMELS ratings or
examination comments on capital adequacy. In addition, the three banks show an
apparent inconsistency in how DSC officials applied the risk-weighting provision of the
Expanded Guidance at these three institutions. Although we reviewed only 3 open
institutions with subprime assets, as of December 31, 2002, 125 FDIC-insured
institutions had $53.8 billion in subprime assets. The magnitude of the number of
institutions and total value of subprime assets points to the need to better monitor the
capital adequacy reported in Call Reports and to consistent ly apply the provision in the
Expanded Guidance during examinations. However, as long as the provisio n for higher
risk weighting for subprime loans is not a requirement and is not reported in the Call
Reports, identification of capital inadequacy may be difficult to achieve between
examinations or during examinations.

       In the Financial Institution Letter (99-01) sent to institutions entitled “Final Rule to
       Amend the Regulatory Capital Treatment of Recourse Arrangements, Direct Credit
       Substitutes, Residual Interests in Asset Securitizations, and Asset-Backed and Mortgage-
       Backed Securities” dated November 29, 2001, federal banking regulators changed the
       regulatory capital standards to address the treatment of the above-mentioned
       instruments, and provided each regulatory agency with the reservation of authority to
       modify a stated risk-weight or credit-conversion factor on a case-by-case basis. The
       effective date of this final rule was January 1, 2002, but under certain circumstances,
       implementation could be delayed to December 31, 2002. Under the new rule, the
       Director of the Division of Supervision and Consumer Protection may, on a case-by-case
       basis, determine the appropriate risk weight for any asset or credit equivalent amount
       that does not fit wholly within one of the risk categories set forth in Appendix A of Part
       325 of the FDIC Regulations, or that imposes risks on a bank that are not commensurate
       with the risk weight otherwise specified in Appendix A for the asset or credit equivalent
       amount.

       The Legal Division has opined that such a determination should not be made prior to the
       December 31, 2002, final implementation date of the rule. Consequently, while higher
       risk weights were used in the C&D of Open Bank # 2 and in the examination evaluation
       of capital adequacy, no higher risk weights were used for PCA calculations.
                                  Source: FDIC Division of Supervision and Consumer Protection

                                               20
With regard to DSC’s comments above, under Financial Institution Letter 99-01, the
Director of DSC can determine on a case-by-case basis the risk weights of assets that do
not fit wholly within one of the risk categories set forth in Appendix A of Part 325 of the
FDIC Regulations, codified to 12 C.F.R. part 325. However, application of this provision
on a case-by-case basis may result in inconsistent application of this rule as was
demonstrated with regard to Open Bank # 2 and the other two open banks. Further, an
important benefit of the Call Report, which is early detection of capital adequacy
problems between examinations, is not achieved if the institutions are not required to
report subprime loans on a risk-weighted basis as suggested in the Expanded Guidance.


Conclusion

In 1991, Congress enacted FDICIA, in part, because of concerns that the exercise of
regulatory discretion during the 1980s did not adequately protect the safety and
soundness of the banking system or minimize insurance fund losses. Section 38 and 39
provisions were originally enacted to limit regulatory discretion in key areas and to
mandate regulatory responses against financial institutions with safety and soundness
problems. With respect to the the capital-related provisions of section 38, our review of
11 FDIC-supervised institutions disclosed that PCA directives were part of the
enforcement process and prevented or reduced losses to the deposit insurance funds.

Our audit results point to several factors that can limit the effectiveness of section 38
capital-related provisions– capital being a lagging indicator, unreliable Call Report data,
transactions that increase capital before or after PCA directives are issued, and the
inadequate accounting for risk associated with subprime loans. With respect to capital
being a lagging indicator, we propose several options later in this report to strengthen the
non-capital related provisions of PCA to mitigate this inherent weakness in PCA.
Regarding unreliable Call Report data, the limitations of such data have been well
documented and, to date, a solution outside of examiners reviewing the data against their
examination results has not emerged, which emphasizes the critical need for timely and
periodic on-site examinations. Also, capital infusions that occur before and after PCA
directives are issued are to be expected, and we can only offer that the source of those
infusions must be analyzed carefully to ensure the transactions actually improve rather
than mask the health of the institution. Analyzing capital infusions will help prevent
undue forbearance by regulators. Finally, inadequate accounting for risk associated with
subprime loans in Call Reports can be mitigated through revised reporting requirements.
Such additional information would improve the FDIC’s ability to detect capital
deficiencies.




                                             21
SECTION 38 AND 39 NON-CAPITAL-RELATED PROVISIONS

NON-CAPITAL-RELATED PROVISIONS WERE SELDOM USED

From our review of 11 institutions, we observed that the FDIC seldom used the non-
capital provisions of PCA. Although the primary focus of section 38 is capital, sections
38 and 39 provide for certain actions based on non-capital factors to facilitate issuance of
PCA directives or to address a non-capital problem. Specifically, section 38(g) provides
for reclassification of the capital category of institutions based on non-capital factors.
Also, section 38(f)(2)(F) provides for regulatory agenc ies to require an institution to
improve management when regulators consider management to be deficient. Finally,
section 39 provides for regulators to require a compliance plan from institutions when
they identify problems with (1) operations and management; (2) asset quality, earnings,
and stock valuation; and (3) compensation.

Reclassification of Capital Category Based on Non-capital Factors

The FDIC did not use section 38(g) in any of the 11 institutions that we reviewed even
though opportunities were present at 10 institutions to implement this provision. The
remaining institution was closed immediately without a PCA directive after a fraud
scheme was discovered. Section 38(g) provides regulators a means to take prompt
corrective action based on criteria other than capital. Specifically, the regulators can
downgrade an institution by one capital level if an institution is in an unsafe and unsound
condition or is engaged in unsafe and unsound practices. For example, the regulators
could downgrade an adequately capitalized institution to the undercapitalized category
and require the institution to comply with the restrictions applicable to that category, such
as limits on the institution’s growth. However, the implementing regulation for section
38(g) is vague and does not provide a clear trigger for implementing this provision. In
addition, this provision and the implementing regulation place additional restrictions on
use of the provision.

The implementing regulation for section 38(g) is contained in section 325.103 of the
FDIC Regulations, codified to 12 C.F.R. 325.103. This section states:

       Reclassifications based on supervisory criteria other than capital. The FDIC may
       reclassify a well capitalized bank as adequately capitalized and may require an
       adequately capitalized bank or an undercapitalized bank to comply with certain
       mandatory or discretionary supervisory actions as if the bank were in the next lower
       capital category (except that the FDIC may not reclassify a significantly undercapitalized
       bank as critically undercapitalized) (each of these actions are hereinafter referred to
       generally as "reclassifications") in the following circumstances:
       (1) Unsafe or unsound condition. The FDIC has determined, after notice and opportunity
       for hearing pursuant to § 308.202(a) of this chapter, that the bank is in unsafe or unsound
       condition; or




                                               22
        (2) Unsafe or unsound practice. The FDIC has determined, after notice and opportunity
        for hearing pursuant to § 308.202(a) of this chapter, that, in the most recent examination
        of the bank, the bank received and has not corrected a less-than-satisfactory rating for any
        of the categories of asset quality, management, earnings, or liquidity.

As can be seen, this section of the regulation provides for two situations when an
institution’s capital category can be reclassified. However, both situations require
judgment on the FDIC’s part before this provision can be implemented. The first
situation requires judgment as to when the FDIC considers an institution to be in an
unsafe and unsound condition. Although the second situation provides an objective
measure—the CAMELS rating assigned during examinations—for the purpose of
reclassifying an institution to the next lower capital category, it is still subjective in that
this section does not define a “less-than-satisfactory” rating. Consequently, section
38(g) does not provide objective criteria for implementation and does not clearly state
when this provision can be used. Based on our review of 11 FDIC institutions, using a
composite rating of 4 or lower as the criteria, we determined that the FDIC could ha ve
reclassified 10 of the 11 institutions to the next lower capital category, but did not do so.

        Section 38(g) criteria for “reclassification” includes that the appropriate banking agency
        may deem the institution to be engaging in an unsafe and unsound banking practice, a
        matter with which the banking agencies have significant experience. Absent other
        available enforcement vehicles, the agencies would no doubt utilize section 38(g) more
        often to “reclassify” troubled institutions. However, enforcement authority under section
        8(b) of the FDI Act is also premised on unsafe and unsound banking practices. A major
        consideration here is that mandatory actions triggered by non-capital criteria under an
        enhanced PCA framework would likely be duplicative of those imposed otherwise under a
        more comprehensive section 8 enforcement action.
                                     Source: FDIC Division of Supervision and Consumer Protection

In addition to not providing objective criteria, this provision also imposes several
restrictions on its implementation. For the FDIC to implement this section, it is required
to provide the institution with a notice and an opportunity for hearing in accordance with
section 308.202-Procedures for reclassifying a bank based on criteria other than capital
of the FDIC regulations, codified to 12 C.F.R. 325.202. A review of this section of the
regulation indicates that the FDIC is required to provide prior notice to the institution,
allow the institution to file a written response to the notice, allow the institution to request
a hearing and present oral testimony or witness, order an informal hearing, and designate
a hearing officer. In addition, this section describes hearing procedures and allows for a
request for rescission of reclassification by the institution when circumstances change.
The lack of objective criteria and these restrictions make the implementation of the
reclassification provision very difficult.




                                                23
       To reclassify an institution, we must determine, after a notice and hearing that an
       institution is in an unsafe or unsound condition or is engaging in an unsafe or unsound
       practice under section 8(b)(8)--which requires that an institution receive in its most
       recent examination a less than satisfactory rating for asset quality, management,
       earnings, or liquidity. If we meet that test, then the FDIC issues a written notice of
       intent to reclassify. The bank may respond to the notice within the time period set by the
       FDIC, which is 14 days (unless the FDIC sets a shorter period). Failure to respond to a
       notice within the specified time period constitutes a waiver of the right to respond and
       consent to the reclassification. The bank may request an informal hearing before
       designated FDIC officials to contest the proposed reclassification. The FDIC will order
       the hearing to commence within 30 days or receipt of the request. The bank can
       introduce written testimony and oral argument, although introduction of oral testimony
       and witnesses is at the discretion of the hearing officer. Within 20 days of the hearing
       and closing of the record, the presiding officer must make a recommendation to the FDIC
       regarding reclassification. Within 60 days of closing the record or, if there was no
       hearing, the date the response was received, the FDIC has to make a decision on the
       reclassification. This process saves little time and may require a substantial cost burden
       for litigation, albeit informal litigation.

       An additional issue is what happens when an institution’s capital category rises before
       the pr ocess of issuing a directive is complete, or after the directive is issued. Banks can
       subsequently request that a reclassification be rescinded and any directives issued in
       connection with the reclassification be modified, rescinded, or removed upon a change in
       circumstances.

       Thus the requirement that an institution be in a particular capital category has at times
       been a problem. In instances in which an institution is well capitalized or adequately
       capitalized, PCA does not provide a full remedy. Getting an institution reclassified to a
       level that allows us to take the action we need is often a difficult and lengthy process. In
       addition, we only can obtain one level of downgrading through this process.
                                                                       Source: FDIC Legal Division




Improving Management

During our review, we observed that for 2 of 11 institutions, the FDIC issued a “Notice of
Intent to Issue a Prompt Corrective Directive Ordering Dismissal.” Although
opportunities for similar actions were present in four other institutions, the FDIC did not
initiate this action. Section 38(f)(2)(F) provides that once an institution reaches the
“significantly undercapitalized” capital category, the regulators can initiate action to
improve management by requiring the board to take one of the following actions:

•   Ordering a new election for the institution’s board of directors.
•   Requiring the dismissal of directors or senior executive officers.
•   Requiring the employment of qualified senior executive officers.

Of the eight failed or acquired institutions in our sample, six reached the “significantly
undercapitalized” capital category or worse. The FDIC used the authority provided by
section 38(f)(2)(F) in the following two cases.
                                               24
•   In the case of Victory State Bank, the examiners noted that the bank’s condition was
    continuing to deteriorate as a result of the Chairman’s detrimental influence. The
    examiners cited the main cause as the Chairman’s excessive compensation. In
    addition, underwriting and credit administration practices were weak. The FDIC
    issued a “Notice of Intent to Issue a Prompt Corrective Directive Ordering Dismissal”
    of the Chairman on March 5, 1999, and the bank was closed on March 26, 1999.

•   In the case of Bank of Alamo, the problems started with the Chairman of the Board,
    who had very little experience managing a bank. After gaining control of the
    institution, he appointed unqualified or inexperienced personnel to run the bank.
    Additionally, he entered into personal business relationships that he did not divulge to
    the board or to the examiners. Under his control, the bank extended a $4.23 million
    line of credit (approximately 76 percent of Tier 1 capital) that was broken into several
    smaller credits to conceal violations of state legal lending limits. The bank also
    extended another poorly structured and poorly documented $1.5 million credit to
    another borrower. When these two loans, along with other loans, became delinquent,
    the bank’s capital became deficient. The FDIC issued a “Notice of Intent to Issue a
    Prompt Corrective Directive Ordering Dismissal” on October 18, 2002, and the
    Chairman of the Board resigned on October 28, 2002. The bank was closed on
    November 8, 2002.

Four other institutions ’ capital reached the “significantly undercapitalized” level. In all
four cases, the FDIC did not initiate action under this section even though the banks’
management was considered inadequate. For example, in the case of First Alliance Bank
and Trust, the bank reached the “significantly undercapitalized” capital category as of
June 30, 2000. Examiners noted that, in addition to lacking technical expertise,
management either failed to develop policies and procedures or failed to follow those that
were developed. Management and the board also allowed the bank to deviate from its
business plan, losses were higher than projected because of poorly conceived business
lines, no strategic plan had been developed, and disagreements and dissention persisted
because of constant turnover on the board and within top management.

The two banks—Victory State Bank and Bank of Alamo--for which the FDIC used this
provision, were closed within a month after the dismissal action was taken. As we have
demonstrated earlier, capital is a lagging indicator, and capital can remain in the “well to
adequate” range long after deterioration has begun in a bank’s operations and/or finances.
Because section 38(f)(2) allows regulators to take actions to improve management only
after an institution reaches the “significantly undercapitalized” category, by the time the
actions are initiated, they may have only marginal effect in improving management or the
institution.

       With regard to actions against individuals, PCA has lesser standards than section 8(e)
       removal actions, but the relief is not as broad. PCA dismisses an officer from his position
       while section 8(e) removes any institution-affiliated party from the banking industry. Again,
       an institution must fall within an appropriate capital category in order for the FDIC to act.
                                                                           Source: FDIC Legal Division
                                                25
Supervisory Actions Based on Safety and Soundness Standards

Section 39 directs regulatory attention to the non-capital areas of an institution’s activities
as they pertain to safety and soundness. To limit deposit insurance losses caused by
factors other than capital, section 39 directs each regulator to establish standards defining
safety and soundness in three overall areas: (1) operations and management; (2) asset
quality, earnings, and stock valuations; and (3) compensation. This section also directs
regulators to require a corrective action plan from institutions that fail to meet any of the
standards. The FDIC used section 39 in only 1—the Salt Lick Deposit Bank--of the 11
institutions that we reviewed. For the other 10 institutions, the FDIC used other
enforcement actions, such as MOUs and C&Ds, even though opportunities were present
in some institutions to implement section 39. Our review of the legislative history of
section 39 revealed that several provisions in the original legislation were removed to
provide discretion to the regulators and, as a result, this section was weakened. In
addition, this section lacks objective criteria defining conditions that would trigger
regulatory action. The following example shows the FDIC’s use of section 39 in the one
institution in our sample.

       The FDIC implemented section 39 in the case of the Salt Lick Deposit Bank with
       little effect. This bank, with total assets of $47 million, had purchased 58 non-
       rated industrial development bonds (IDBs) with a book value of $9.7 million.
       These bonds were essentially commercial loans to under-capitalized corporate
       borrowers. These bonds were not traded readily, so their fair market value was
       difficult to ascertain. On November 28, 2000, the FDIC issued a notice under
       section 39 requiring a Safety and Soundness Compliance Plan to review all non-
       rated assets contained in the investment portfolio and to make the bank’s books
       reflect the market value of each non-rated security. However, before the Safety
       and Soundness Compliance Plan was accepted, the FDIC issued a C&D on
       January 18, 2001, that included the same requirements that were in the Safety and
       Soundness Compliance Plan. An examination conducted in March 2001
       classified approximately $4.5 million of the IDBs, causing the bank’s capital to
       drop to the “critically undercapitalized” level. Salt Lick Deposit Bank was
       acquired by another bank on May 9, 2001.

An analysis of the legislative history indicates that section 39 originally required banking
regulators to prescribe safety and soundness standards through regulations. For the
operations and management standards, section 39 had required the regulators to prescribe
standards on internal control, internal audit systems, loan documentation, credit
underwriting, interest rate exposure, and asset growth. For asset quality, earnings, and
stock valuation, the section initially required regulators to establish quantitative
standards. For compensation standards, the regulators were to specify when
compensation, fees, or benefits to executive officers, employees, and directors would be
considered excessive or could lead to material financial loss. In addition, another key
provision of the section directed regulators to require a corrective action plan from
institutions or holding companies that fail to meet any of the standards.


                                              26
The Riegle Community Development and Regulatory Improvement Act of 1994 (CDRI),
Public Law 103-325, was passed on September 23, 1994, and contained more than 50
provisions that were intended to reduce bank regulatory burden and paperwork
requirements. Among its provisions, CDRI amended some of section 39’s requirements
to provide regulators with greater flexibility and to respond to concerns that section 39
would subject depository institutions to undue “micromanagement” by the regulators.
The CDRI amendments allowed regulators to issue the standards in the form of
guidelines instead of regulations. If guidelines were used, the amendments gave the
regulators the discretion to decide whether a corrective action plan would be required
from institutions that were found not to be in compliance with the standards. Finally, the
amendments eliminated the requirement that regulators issue quantitative standards for
asset quality and earnings, and excluded holding companies from the scope of the
standard.

The CDRI did not change section 39’s original provision regarding the content and
review of any corrective action plan required as a result of noncompliance with section
39’s safety and soundness standards. Thus, regulators still were required to issue
regulations governing the contents of the plan, time frames for the submission and review
of the plan, and enforcement actions applicable to the failure to submit or implement a
required plan.

The banking regulators had not used their section 39 enforcement authority against an
institution from inception of the section in December 1991 to September 1996. In July
1995, the regulators issued final guidelines and regulations to implement parts of
section 39. Specifically, the regulators issued standards governing operations and
management and compensation. Regulators also issued requirements for the submission
and review of compliance plans. In August 1996, the regulators issued the remaining
standards required for the full implementation of section 39–asset quality and earnings.

The safety and soundness standards contained in the guidelines are general in nature and
do not identify specific unsafe and unsound conditions and practices. The standards
consist of broad statements of sound banking principles that are subject to considerable
interpretation by the regulators. For example, the standards for asset quality state that “an
insured depository institution should establish and maintain a system that is
commensurate with the institution's size and the nature and scope of its operations to
identify problem assets and prevent deterioration in those assets.” Specifically, the
guidelines require institutions to conduct periodic reviews to identify problem assets,
compare problem assets to capital to establish reserves, take appropriate actions, etc.
Although these controls and processes are required as part of the standards, these
expectations do not provide measurable criteria of unsafe and unsound conditions or
practices that would trigger mandatory actions.

Further, the guidelines and regulations do not require regulators to take corrective action
against institutions that do not meet the standards for safety and soundness. The CDRI
amended the section 39 mandate that regulators require an institution to file a corrective
action plan if the institution is found not to be in compliance with the standards. The new

                                             27
provision allows regulators greater flexibility in deciding when or whether to impose this
requirement. Although requiring a corrective action is within the discretion of the
regulators, the guidelines do not provide quantifiable criteria or specific guidance for
measuring an institution’s compliance with section 39 standards or triggering actions
under this section.

Although the original intent of section 39 was to limit the deposit insurance losses caused
by factors other than capital, subsequent amendments and the discretion provided to
regulators substantially weakened this section. In addition, the lack of objective criteria
for triggering action and the lack of quantifiable criteria or specific guidance for
measuring an institution’s compliance with section 39 standards make this section
difficult to implement.


       Section 39 is designed to prompt a bank to take steps to identify problems before its
       safety and soundness becomes impaired. The process involved allows the FDIC to
       request that a bank file a compliance plan indicating the steps it will take to correct noted
       deficiencies. The bank is generally given 30 days to file an acceptable compliance plan.
       The FDIC then has 30 days to consider the bank’s plan. If the bank’s plan is acceptable,
       then the FDIC must allow a reasonable time for its implementation. If the plan is
       unacceptable, the FDIC may issue a Notice of Intention to Issue a section 39 Order
       directing the bank to correct the deficiency. In most cases, the bank has 14 days to
       respond. After considering the response, the FDIC may issue an Order. Often the
       deadlines for correction set forth in the Order will be later than those in the bank’s initial
       plan because of the lapse of time.

       Thus, Section 39 may be used to correct certain operational deficiencies specified in the
       guidelines. However, not all deficiencies are covered. Therefore, a section 8(b) cease
       and desist order, which allows for more flexibility in its areas of coverage, may be
       necessary. In addition, based upon the facts in a particular case, a consent 8(b) order
       may be obtained more quickly than section 39 relief given the time frames discussed
       above.
                                                                        Source: FDIC Legal Division




Conclusion

Sections 38 and 39 provide regulators with non-capital-related enforcement tools that
they can use to obtain corrective action or close institutions with serious safety and
soundness problems. Specifically, these sections provide for (1) reclassification of a
capital category based on non-capital factors, (2) improving management when regulators
consider management to be deficient, and (3) supervisory actions based on safety and
soundness standards.

Our review disclosed that provisions of sections 38 and 39 do not provide objective,
measurable criteria for implementation and in some instances, placed restrictions on their
use. Consequently, the non-capital provisions of section 38 and 39 were seldom used.

                                                28
LEGISLATIVE AND REGULATORY OPTIONS FOR CONSIDERATION

We acknowledge that PCA is one of many supervisory tools and that the FDIC overcame
the limitations of sections 38 and 39 through the use of other enforcement actions, such
as C&Ds. However, to fulfill the congressional intent and to provide the primary banking
regulators with a more effective set of supervisory tools, legislative or regulatory changes
may be needed.

Our draft of this report included six recommendations for legislative or regulatory
changes to strengthen PCA provisions. However, in discussing the draft report with DSC
officials, they stated that the FDIC does not have the authority to unilaterally initiate and
enact such changes. In addition, the officials provided various reasons why the Division
concluded that adopting the recommendations would not be productive at this time.
Details of DSC’s position are included in the Corporation Comments and OIG Evaluation
section of this report and in the Corporation’s written comments included as
Appendix VI. Taken as a whole, DSC’s position and related comments had merit. We
have, therefore, modified the recommendations to be the following legislative and
regulatory options for consideration:

   (1) Regulatory changes such as making the higher capital expectations specified in
       the Expanded Guidance on Subprime Loans part of the Call Report instructions,
       or some other method, to ensure that the reported capital ratios of institutions
       reflect the risk related to those loans.

   (2) Legislative and regulatory changes to add the CAMELS rating or some other
       objective criteria as the trigger for implementing section 38(g).

   (3) Legislative or regulatory changes to remove or lessen the due process provisions
       imposed by section 38(g).

   (4) Legislative and regulatory changes needed to allow implementation of section
       38(f)(2) when institutions become “undercapitalized.”

   (5) Regulatory changes to add objective or quantifiable criteria, such as CAMELS
       ratings, to section 39 provisions to trigger actions.

   (6) Regulatory changes to make it mandatory to take corrective actions when
       institutions do not meet section 39 safety and soundness standards.

To facilitate consideration of these options to improve the effectiveness of PCA, we will
include them in our Semiannual Report to the Congress. We also intend to provide
copies of this report to the Senate Committee on Banking, Housing and Urban Affairs,
House Committee on Financial Services, and the Chairman of the Federal Financial
Institutions Examination Council (FFIEC) after the next FDIC Audit Committee meeting.




                                             29
CORPORATION COMMENTS AND OIG EVALUATION

On September 4, 2003, the Corporation provided its comments on our legislative and
regulatory options for consideration. The Corporation’s comments generally agreed with
our observations regarding the use and effectiveness of PCA provisions. However, the
comments pointed out that the report did not consider the following important issues and
factors that would complicate the implementation of proposed options: due process,
unintended consequences, and congressional and public sentiment. While we agree that
these issues and factors are important, we did not intend our report to discuss every issue
and nuance of PCA provisions. Instead, we provided our observations and options for the
Congress and the regulators to consider in any reassessment of the PCA provisions.

The Corporation’s comments also offered other factors that should be considered and
included specific comments for each option that we proposed for consideration.
However, we would like to provide additional information in response to several
statements included in the Corporation’s comments.

Specifically, the Corporation stated:

       The GAO [General Accounting Office} studied the PCA rules in 1996, using a sample of 61 banks
       that had been subject to PCA actions, and issued a report. Although the GAO report noted the
       inherent limitations of the capital-based safeguards set forth in section 38 and the lack of objective
       criteria in section 39, it did not make any recommendations to change or amend the law or the
       implementing regulations.

We agree that the 1996 GAO report did not make any recommendations. However, the
GAO report points out that few institutions were subject to section 38 enforcement
actions from December 1992 through September 1996. In fact, for GAO’s sample of 61
institutions, section 38 directives were used against only 8 institutions. Further,
section 39 was not fully implemented until October 1, 1996, only 1 month before GAO
issued its report in November 1996. Further, the same report points out that in 1991, the
GAO recommended that Congress and the regulators develop a “trip wire” system that
would be based on clear, objective criteria as to what would constitute unsafe and
unsound conditions and practices and the regulatory actions that would result if
institutions violated the specified criteria. This recommendation was adopted and, until it
was amended, the original legislation required quantitative standards for two of three
areas under section 39. Therefore, we believe our options 2, 3, 5, and 6 only reiterate
GAO’s recommendations in 1991 to Congress and the regulators, and we would continue
to offer them as options for consideration.

We acknowledge in our report that the regulators elected not to include higher capital
requirements in the risk-based capital framework because of the difficulty in defining the
term “subprime.” However, we believe that subprime loans continue to pose a significant
risk to the deposit insurance funds. Not establishing a formal method for reporting risk-
weighted capital and depending on the periodic examinations to evaluate capital
adequacy, in our opinion, do not mitigate the risks posed by subprime loans. Therefore,
we would continue to offer option 1 for consideration.

                                                   30
Finally, in its response to option # 4, the Corporation stated that under section 38(e)(5),
an undercapitalized institution may be subject to section 38(f)(2) if the agency determines
it is necessary to carry out the purpose of section 38. Thus, section 38(f)(2) is already
available to regulators when an institution becomes “undercapitalized.” Our report
observes that the authority available to the regulators under section 38(f)(2)(F) to require
the institution to dismiss or replace bank officers or directors is not being used frequently.
Specifically, our report pointed out that of the six of institutions in our sample that
reached the “significantly undercapitalized” level and could have been subject to section
38(f)(2)(F) actions, the FDIC used the section authority for only two institutions. This
contrasts with the multitude of examples of management deficiencies (included in
Appendix IV) that the examiners identified during examinations. Further, our report also
pointed out that the two banks for which the FDIC used this provision were closed within
a month after the dismissal action was taken. Therefore, we continue to believe that
changes to section 38(f)(2) should be made to promote the appropriate use of this
important authority for both “undercapitalized” and “significantly undercapitalized”
institutions, and we would continue to offer option 4 for consideration.




                                              31
                                                                                                                             APPENDIX I



                                                       LIST OF INSTITUTIONS REVIEWED

Name                                     Closed/Acquired/Open                   Date   Asset Size (in   Estimated Loss    Dollar Loss as a
                                                                                        millions)a       (in millions)b    Percentage of
                                                                                                                           Total Assets
Victory State Bank                                 Closed                   03/26/99            $11.8                 0           0
Bank of Honolulu                                   Closed                   10/13/00            $61.2             $1.44         2.4%
Bank of Alamo                                      Closed                   11/08/02            $59.8             $7.80        13.0%
Bank of Falkner                                    Closed                   09/29/00            $75.7            $15.46        20.4%
Salt Lick Deposit Bank                            Acquired                  05/09/01            $46.6                 0           0
Bank of Sierra Blanca                              Closed                   01/18/02            $10.5             $4.34        41.3%
Home State Bank                                   Acquired                  12/29/00            $26.5                 0           0
First Alliance Bank & Trust                        Closed                   02/02/01            $16.8             $0.82         4.9%
Open Bank # 1                                      Open                       N/A              $876.5              N/A          N/A
Open Bank # 2                                      Open                       N/A            $1,920.0              N/A          N/A
Open Bank # 3                                      Open                       N/A            $1,850.0              N/A          N/A

a/ At institution closure per Division of Finance or most recent examination.
b/ Per Division of Finance’s “Estimated Loss Report” as of 5/31/03.




                                                                                 32
                                                                             APPENDIX II


                   OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of this review were to determine whether PCA provisions were used as
part of the FDIC’s enforcement process and served to reduce the losses to the deposit
insurance funds. To achieve the objectives, we conducted in-depth analyses (case
studies) of a sample of a total of 11 failed and open banks in order to gain insight into the
use of PCA provisions. Institutions selected for review included only FDIC-supervised
banks.

To select a sample of banks for our review, we contacted DRR and obtained a list of
resolution cases for the period 2000, 2001, and 2002. The list contained the names of 22
banks that have failed or nearly failed, banks in which DRR was conducting work, and
banks that DRR was monitoring. We did not test the list for its accuracy or
completeness. Using a judgmental sampling approach, and in consultation with DSC and
DRR, we selected 11 banks for review: 1 in DSC’s Atlanta region, 5 in the Dallas region
(Dallas-2, Memphis-3), 1 in the San Francisco region, and 4 in the New York region
(New York-2, Boston-2). Based on DSC’s suggestion, we included Victory State Bank
in our sample even though it was closed in 1999. A listing of the banks we reviewed,
eight failed or acquired and three open, is in as Appendix I. The open banks we studied
are identified as Open Bank # 1, # 2, and # 3.

For each bank selected, we reviewed all available DSC files, including: FDIC and state
reports of examination; supervisory actions initiated by the regulators, including C&Ds,
PCA directives, and MOUs; results of supervisory visits; interoffice memorandums;
correspondence between the regulators and bank officials; problem bank memorandums;
and memorandums presenting detailed analyses of failures. We may not have reviewed
all pertinent documents in cases for which corporate investigators and/or attorneys were
using file documents at the time we performed our field visits. Additionally, we held
discussions with corporate officials in headquarters offices of DSC, Legal, DRR, and
DIR. At the FDIC Regional and Area Offices, we met with DSC regional and area office
directors, assistant regional directors, and case managers. In analyzing the banks in our
sample, we also reviewed their capital condition for the period covered by our audit. We
did not, however, test the accuracy of the capital ratios that DSC had developed and
provided to us for this part of our analysis. Following the completion of our analyses, we
provided our case histories to DSC, Legal, DRR, and DIR for their review and comment.
Their comments were incorporated into our report where appropriate.

To ensure our understanding of prompt corrective action provisions, we reviewed
sections 38 and 39 and other related sections of the FDI Act. In addition, we reviewed
the following previous audit reports:

•   The FDIC Office of Inspector General (OIG) Audit Report No. 03-019, entitled The
    Division of Supervision and Consumer Protection’s Examination Assessment of
    Subprime Lending, dated March 18, 2003;


                                             33
                                                                             APPENDIX II


•   The FDIC OIGAudit Report No. 03-017, entitled Material Loss Review of the Failure
    of the Connecticut Bank of Commerce, Stamford, Connecticut, dated March 10, 2003.

•   The FDIC OIG Audit Report No. 02-013, entitled The Effectiveness of Prompt
    Corrective Action Provisions in Preventing or Reducing Losses to the Deposit
    Insurance Funds, dated March 26, 2002;

•   The GAO report, GAO/GGD 97-18, entitled Implementation of FDICIA’s Prompt
    Regulatory Action Provisions, dated November 21, 1996.


We also reviewed the report entitled “Differentiating Among Critically Undercapitalized
Banks and Thrifts” dated June 14, 2002. This report was from the FDIC’s former
Division of Research and Statistics, which conducted a review of bank failures that
occurred from 1994 through 2000 and of banks that fell below the 2 percent capital
requirement for the critically undercapitalized institutions. The report concluded that,
from 1994 through 2000, most failures imposed significant costs (as a percentage of
assets) on the insurance funds. However, 55 percent of the FDIC-insured institutions that
fell below the PCA threshold for critically undercapitalized institutions avoided failure,
and about 30 percent of the failed institutions never breached the PCA threshold.

We limited our assessment of DSC’s system of internal controls to gaining an
understanding of the division’s procedures for reporting on undercapitalized institutions
and section 38 and 39 provisions. We did not (1) test internal controls, (2) review
Government Performance and Results Act reporting, (3) test for fraud or illega l acts, or
(4) determine the reliability of computer-processed data obtained from the FDIC’s
computerized systems. However, the fact that we did not perform those tests, reviews, or
assessment of the reliability of data did not affect our ability to achie ve the stated audit
objectives or the audit results. The audit was conducted from January 6, 2003 through
June 16, 2003 in accordance with generally accepted government auditing standards.




                                             34
                                                                            APPENDIX III


                ADDITIONAL BACKGROUND INFORMATION
               ON PROMPT CORRECTIVE ACTION PROVISIONS


The FDIC insures the deposits of banking and thrift institutions. However, the FDIC, the
Board of Governors of the Federal Reserve System (FRB), the Office of the Comptroller
of the Currency (OCC), and the Office of Thrift Supervision (OTS) share responsibility
for regulating and supervising federally insured banks and thrifts in the United States.
The FDIC is the primary federal regulator of state-chartered banks that are not members
of the Federal Reserve System; the FRB regulates state-chartered, member banks; the
OCC regulates nationally chartered banks; and the OTS regulates all federally insured
thrifts, regardless of charter. The regulators carry out their oversight responsibilities
primarily by monitoring financial data that institutions file with them, conducting
periodic on-site examinations, and taking actions to enforce federal safety and soundness
laws and regulations.

From 1980 through 1990, the failure of hundreds of banks and thrifts threatened the
solvency of the federal deposit insurance funds. The insurance fund for banks (the Bank
Insurance Fund) had a negative balance for the first time in its history. In addition, the
insurance fund for thrifts (the Savings Association Insurance Fund) required a taxpayer
bailout. This crisis resulted in deposit insurance fund losses estimated at over $125
billion. One of the many factors contributing to the size of the losses was weakness in
federal regulatory oversight. Federal regulators were criticized for not taking prompt and
forceful action to minimize or prevent losses to the insurance funds due to bank and thrift
failures.

In response, the United States Congress passed the Federal Deposit Insurance
Corporation Improvement Act of 1991 (FDICIA) to improve the supervision and
examination of depository institutions and protect the insurance funds from further losses.
Two new sections, sections 38 and 39, were enacted into the Federal Deposit Insurance
Act. The provisions required federal regulators to institute a two-part sys tem of
regulatory actions that would be triggered when an institution fails to meet minimum
capital levels or safety and soundness standards. Enactment of this two-part system was
intended to increase the likelihood that regulators would respond promptly and forcefully
to prevent or minimize losses to the deposit insurance funds.

Section 38, Prompt Corrective Action, was codified to 12 U.S.C. 1831o and section 39,
Standards for Safety and Soundness, was codified to 12 U.S.C. 1831p-1. Section 38
provisions require federal regulators to initiate actions when an institution fails to meet
minimum capital levels. Section 39 provisions address safety and soundness standards
relating to factors other than capital.

Section 38(c) made capital the centerpiece of the PCA provisions because funds invested
by owners can absorb losses before the institutions become insolvent. In addition,
section 38(c) created a capital-based framework for bank and thrift oversight that is based
on the placement of financial institutions into one of five capital categories. Section 38

                                             35
                                                                                            APPENDIX III


required regulators to define criteria for four of the five categories, which are identified
as well-capitalized, adequately capitalized, undercapitalized, and significantly
undercapitalized. It also required the regulators to set the threshold for the fifth category,
which is identified as critically undercapitalized, at no less than 2 percent of tangible
equity capital. The section also established a system of mandatory supervisory actions
that are to be triggered by an institution’s capital levels. Section 38 restricts depository
institutions in the three lowest capital categories from engaging in certain activities that
could increase the risk of loss to the federal deposit insurance funds. Table 8 shows the
minimum capital levels established by the regulators for each of the five categories
defined by section 38(c).


Table 8: Capital Categories and Ratios Defined by Section 38 Provisions
                           Total Risk-Based Capital             Tier 1 Risk-Based
   Capital Category                                                   Capital                  Leverage Capital
 Well-capitalized         10 percent or more and            6 percent or more and          5 percent or more
 Adequately
 Capitalized              8 percent or more and             4 percent or more and          4 percent or more
 Undercapitalized         Less than 8 percent or            Less than 4 percent or         Less than 4 percent
 Significantly
 Undercapitalized         Less than 6 percent or            Less than 3 percent or         Less than 3 percent
 Critically               An institution is critically undercapitalized if its tangible equity is 2 percent or less
 Undercapitalized         regardless of its other capital ratios.
Source: Section 38 of the FDI Act and 57 Federal Register 44866-01.

The regulators jointly developed the implementing regulations for section 38 based on the
criteria for the top four capital categories on international capital standards and adopted
section 38’s tangible equity ratio of 2 percent as the threshold for the critically
undercapitalized category. A well-capitalized or adequately capitalized institution must
meet or exceed all three capital ratios for its capital category. To be deemed
undercapitalized or significantly undercapitalized, an institution need only fall below one
of the three ratios listed for its capital category.

Section 7 of the FDI Act requires all insured financial institutions to submit Call Reports
or Thrift Financial Reports (TFR) to their primary federal regulators each quarter.
Primary regulators determine the capital categories for section 38 purposes using the
information that institutions provide in their Call Reports or TFRs. Under the banking
agencies’ risk-based guidelines, assets and credit equivalent amounts of derivatives and
off-balance sheet items are assigned to one of several broad risk categories according to
obligor, or, if relevant, the guarantor or the nature of the collateral. The aggregate dollar
amount in each risk category is then multiplied by the risk weight associated with that
category. The resulting weighted values from each of the risk categories are added
together, and generally, this sum is the bank’s total risk-weighted assets, which comprises
the denominator of the risk-based capital ratio. Appendix A to part 325 of the FDIC




                                                       36
                                                                                         APPENDIX III


Regulations establishes FDIC’s Statement of Policy on Risk-Based Capital. The risk-
weights associated with various asset types that institutions should apply to their assets
are included under “Schedule RC-R – Regulatory Capital,” of Call Report Instructions.
The Total Risk-Based capital ratio consists of the sum of Tier 1 and Tier 2 capital divided
by risk-weighted assets. Tier 1 capital consists primarily of tangible equity. Tier 2
capital includes subordinated debt, loan loss reserves, and certain other instruments.
Leverage capital is computed without risk weights.

To simplify and illustrate the computation of leverage and Tier 1 risk-based capital, the
example below considers an institution with assets of $200 and $8 in Tier 1 capital. 16

•    If that institution’s assets had a risk-weight of 100 percent, both its leverage and Tier
     1 risk-based capital ratios would be 4 percent. The leverage capital ratio is computed
     by dividing $8 in capital by $200 in assets. The Tier 1 risk-based capital ratio is
     computed as follows: $8/$200 ($200 multiplied by 1 for 100 percent risk weight).
     So, for PCA purposes, this bank would be considered “Adequately capitalized.”

•    If that same institution’s assets had a risk-weight of 150 percent, its leverage capital
     would still be 4 percent ($8 divided by $200 in assets). However, the risk-based
     capital for this institution would be 2.67 percent computed as follows: $8 in capital
     divided by $300 ($200 in assets multiplied by 1.5 for a risk weight of 150 percent).
     With its Tier 1 risk-based capital of 2.67 percent, this institution would be considered
     “significantly undercapitalized” for PCA purposes.

Depository institutions that do not meet minimum capital levels face several mandatory
restrictions or actions. Section 38(e) provisions applicable to restrictions on
undercapitalized institutions mandate that federal regulators require institutions to
(1) submit capital restoration plans; (2) restrict the growth of assets; and (3) obtain prior
approval for additional acquisitions, branches, and new lines of business. Section 38
allows regulators to take additional actions against an undercapitalized institution, if
considered necessary.

Under section 38, institutions that are classified as significantly undercapitalized face
more stringent restrictions. Regulators must take one or more of the following actions:
• Require the sale of equity or debt or, under certain circumstances, requiring
   institutions to be acquired by or merged with another institution.
• Restrict otherwise allowable transactions with affiliates.
• Restrict the interest rate paid on deposits by institutions.
• Impose more stringent asset growth limitations than required for undercapitalized
   institutions or require the institution to reduce its total assets.
• Require the institution, or its subsidiaries, to alter, reduce, or terminate an activity that
   the regulator deems excessively risky to the institution.


16
  Section 38 requires three measures of capital—Total Risk-based, Tier 1 Risk-based, and Leverage
capital. For the sake of simplicity and to explain the concept of risk-based capital, we used only two
measures in this example.
                                                      37
                                                                             APPENDIX III


•   Improve management by (1) ordering a new election for the institution’s board of
    directors, (2) dismissing directors or senior executive officers, and/or (3) requiring an
    institution to employ qualified senior executive officers.
•   Prohibit acceptance, renewal, or rollover of deposits from correspondent banks.
•   Require prior approval for capital distributions from holding companies having
    control of the institution.
•   Require divestiture by (1) the institution of any subsidiary that poses significant risk
    to the institution, (2) the parent company of any nondepository affiliate that poses a
    significant risk to the institution, and/or (3) any controlling company of the institution
    if that divestiture would improve the institution’s financial condition.
•   Prohibit payment of bonuses to or increasing compensation of senior executive
    officers without prior approval.

Each regulator is responsible for taking the actions included in section 38 for the
institutions it supervises. When an institution becomes critically undercapitalized, federal
regulators must either appoint the FDIC as conservator or receiver or take other action to
minimize losses to the insurance funds within 90 days of becoming aware of the
institution’s condition. Section 38 also prohibits critically undercapitalized institutions
from doing any of the following without the FDIC’s prior written approval:
• Entering into any material transaction (such as investments, expansion, and asset
    sales), other than in the normal course of business.
• Extending credit for any highly leveraged transaction.
• Amending the charter or bylaws, except to carry out any other requirement of any
    law, regulation, or order.
• Making any ma terial changes in accounting methods.
• Engaging in any covered transactions.
• Paying excessive compensation or bonuses.
• Paying interest on new or renewed liabilities at a rate that would increase the
    institution’s weighted average cost of funds to a level significantly exceeding the
    prevailing rates of interest on insured deposits in the institution’s normal market area.
• Paying principal or interest on the institution’s subordinated debt beginning 60 days
    after becoming critically undercapitalized.

Section 38(d) provisions applicable to all institutions prohibit the m from making capital
distributions or paying management fees that would drop them into the undercapitalized
category. In addition, according to section 29 of the FDI Act, codified to 12 U.S.C.
§1831f, an adequately capitalized institution cannot accept brokered deposits without a
waiver from the FDIC.

Finally, section 38 permits regulators to, in effect, downgrade an institution by one
capital category if the institution is in unsafe or unsound condition or if it is engaging in
an unsafe and unsound practice. For example, regulators can downgrade an adequately
capitalized institution to the undercapitalized category if the institution received a less
than satisfactory rating in its most recent examination report for asset quality,
management, earnings, or liquidity. By downgrading an institution, the regulators can
require the institution’s compliance with those restrictions applicable to undercapitalized

                                              38
                                                                             APPENDIX III


institutions. This provisio n allows regulators to take action against an institution that
poses a danger to the deposit insurance funds from factors other than its capital level.

Further, to limit deposit insurance losses caused by factors other than inadequate capital,
Section 39 of the FDI Act requires each regulator to establish certain safety and
soundness standards related to (1) operations and management; (2) asset quality, earnings
and stock valuation; and (3) compensation. To allow for flexibility among the regulators
based on the scope and nature of the agencies’ activities, the regulators elected to adopt
broad guidelines instead of strict numerical standards. The guidelines were designed to
prompt depository institutions to implement measures that would assist in identifying
emerging problems in areas other than capital and to correct those problems before
capital became impaired.




                                              39
                                                                       APPENDIX IV



       EXAMPLES OF DEFICIENCIES IDENTIFIED BY EXAMINERS

In reviewing the eight banks in which PCA directives were used, we observed that in
all cases, the examiners identified deteriorating asset quality, which culminated from
deficiencies related to bank management and/or board oversight. Examples of
deficiencies identified included the following:

Ø Problems related to one person dominating the institution.

   •   In the case of the Bank of Honolulu, the Chairman of the Board, who owned
       over 99 percent of the bank, engaged in a number of insider transactions with
       foreign individuals to whom the bank had extended $6 million in unsecured
       international loans. These loans played a significant role in the eventual
       failure of the bank.

   •   The extremely weak asset quality of the Bank of Sierra Blanca was
       attributable to the reckless and self-serving lending practices of its President,
       who resigned prior to the bank’s failure. This individual apparently originated
       and approved loans in violation of state lending limits, released collateral
       without corresponding reductions in the related loan, and promoted the
       interests of another entity that employed him.

   •   The closure of Victory State Bank was primarily the result of problems
       stemming from the Chairman’s disregard for the bank’s financial well being.
       The Chairman’s excessive compensation over the years was the major
       contributor to the bank’s operating losses and depletion of capital. He
       dominated all aspects of Victory’s operations and failed to implement
       corrective measures to address the continuing deterioration of the bank’s
       condition, primarily resulting from weak underwriting and credit
       administration practices.

Ø Weak or inadequate Board oversight.

   •   In the case of Victory State Bank, in spite of the fact that the FDIC questioned
       the reasonableness of the Chairman’s compensation, the Board took no action
       regarding the Chairman’s excessive compensation or the detrimental influence
       he exerted on the bank.
   •   In the case of Salt Lick Bank, the examiners noted that the Board of Directors
       permitted the President of the bank to operate the institution in a hazardous
       and objectionable manner.
   •   In November 2001, the FDIC examiners dropped the composite CAMELS
       rating from a 2 to a 4 for Open Bank # 2. The examiners noted that the
       increase in its risk profile was due to a marked decline in the credit quality of
       subprime assets, a significantly under-funded ALLL, an inadequate capital
       level, imprudent credit management practices, and other managerial

                                        40
                                                                                        APPENDIX IV



             deficiencies. Examiners attributed many of the problems to weak Board
             oversight, particularly in the areas of credit standards and underwriting.

     Ø Insider lending or related abuses.

         •   In the case of Home State Bank, state examiners determined that a sizable
             portion of the bank’s asset quality problems were directly related to the former
             Board Chairman and related family and business interests. Specifically, loans
             directly tied to or influenced by the former Chairman comprised 35 percent of
             classified loans as of December 1999, at which time the bank’s capital
             category was lowered from “adequately capitalized” to “significantly
             undercapitalized.”17 This individual resigned before the bank was closed.

         •   Without informing the regulators, the Bank of Alamo’s Chairman of the
             Board had pledged his bank ownership as collateral on a loan of
             approximately $4.2 million because he was experiencing great financial
             difficulty. Examiners also noted that the Chairman and the Bank of Alamo
             were named as defendants in a complex lawsuit involving several interests of
             the Chairman. The plaintiff in this lawsuit alleged specific acts of fraud,
             racketeering, and other violations. In addition, the examiners noted that the
             Chairman was continuing to make decisions that adversely impacted the bank,
             including drawing various personal financial benefits without seeking Board
             approval.

     Ø Lack of expertise and/or qualified personnel.

         •   Shortly after the First Alliance Bank and Trust Company opened, a joint
             visitation by the state and the FDIC disclosed deficiencies related to many of
             the bank’s policies and procedures and a need for management to develop a
             strategic plan. Problems at the institution were magnified by changes in
             leadership. During the bank’s first 2 years, the bank had three different
             presidents with different goals and objectives. In additio n, during the bank’s
             4-year existence, six of the initial directors resigned, four of whom were the
             only board members with prior banking experience. Other directors who had
             joined the Board after the bank was established also departed. Also,
             management continuously deviated from the business plan.

         •   An individual who had been a Board member for 23 years took control of
             policy- making and day-to-day operations of the Bank of Alamo without
             formal bank



17
  Classified loans are loans that are not protected adequately by the current sound worth and paying
capacity of the borrower or the collateral pledged. Therefore, full liquidation of the debt may be in
jeopardy.
                                                      41
                                                                                      APPENDIX IV



              training. Further, he appointed another individual, a veterinarian, as
              President.

         Ø Holding company control.

          •   For Open Bank # 1, examiners reported that Board oversight was lacking and
              that all critical management decisions and functions were performed by
              officers of affiliated entities of the parent company. The parent of Open
              Bank # 1 also owned a national bank. 18 In addition, examiners noted that
              Open Bank # 1 (in reality, the parent) had commenced an aggressive strategy
              for loan growth that contributed to significant deterioration in the bank’s
              asset quality.

     •   For Open Bank # 3, examiners noted that the bank’s Board had allowed officers
         of the parent company to make significant decisions. In addition, the examiners
         noted that the organizational structure of the bank and its position within the
         parent company did not provide the bank’s Board with the necessary
         independence to accomplish its fiduciary responsibilities. The parent company of
         Open Bank # 3 also owned a national bank, and examiners noted that the state
         non- member bank was being operated as a branch of the national bank.




18
  According to DSC, the parent is not required to register as a bank holding company under the Bank
Holding Companies Act. The parent owns the national bank, which is a “bank” as defined under the
BHCA, as amended by the Competitive Equality Banking Act of 1987 (CEBA). However, under
grandfathering provisions of CEBA, the parent is not required to register as a bank holding company
because the national bank, which takes demand deposits but does not make commercial loans, did not fall
within the BHCA definition of the term “bank” prior to the enactment of CEBA. Under CEBA, the state
non-member bank is not considered a “bank” for purposes of the BHCA. Accordingly, the parent is not
subject to examination by the Federal Reserve.




                                                   42
                                                                        APPENDIX V

                                     GLOSSARY

Allowance For    Federally insured depository institutions must maintain an ALLL at
Loan and Lease   a level that is adequate to absorb the estimated credit losses
Losses (ALLL)    associated with the loan and lease portfolio (including all binding
                 commitments to lend). To the extent not provided for in a separate
                 liability account, the ALLL should also be sufficient to absorb
                 estimated credit losses associated with off-balance sheet credit
                 instruments such as standby letters of credit.
Call Report      An institution’s quarterly Consolidated Report of Condition and
                 Income that contains a balance sheet, income statement, and other
                 detailed financial schedules containing information about the
                 institution.
CAMEL(S)         The FDIC and other regulators use the Uniform Financial
Rating           Institutions Rating System (UFIRS) to evaluate a financial
                 institution’s performance. Areas of financial and operational
                 concern are evaluated and given a numerical rating of “1” through
                 “5” with “1” having the least concern and “5” having the greatest
                 concern. The performance areas identified by the CAMEL acronym
                 are capital adequacy, asset quality, management, earnings, and
                 liquidity. A sixth component, sensitivity to market risk, was added
                 in December 1996 changing the acronym to CAMELS.
Capital          Funds invested in a bank, including Common Stock and qualifying
                 Preferred Stock, Mandatory Convertible securities, such as Capital
                 Notes, plus retained earnings.
Concentration    A concentration is a significantly large volume of economically
                 related assets that an institution has advanced or committed to one
                 person, entity, or affiliated group. These assets may in the aggregate
                 present a substantial risk to the safety and soundness of the
                 institution. A concentrations schedule is one of the pages that may
                 be included in the FDIC's Report of Examination. As a general rule,
                 concentrations are listed by category according to their aggregate
                 total and are reflected as a percentage of Tier 1 Capital.
Credit           Credit enhancements may be either internal or external. Internal
Enhancements     enhancements are created by redirecting internal cash flows and
                 include senior-subordinate structures and cash reserve accounts
                 funded by the originator. External enhancements are not dependent
                 on redirecting internal cash flows and include letters of credit from
                 banks, surety bonds from insurance companies, guarantees from
                 financial assurance companies, and subordinated loans from third
                 parties.
Leverage Capital Banks must maintain at least the minimum leverage requirement set
                 forth in part 325 of the FDIC Rules and Regulations. The minimum
                 leverage requirement consists of only Tier 1 (Core) capital.




                                          43
                                                                           APPENDIX V



Residual Assets    Residual Assets represent claims on the cash flows that remain after
                   all obligations to investors and any related expenses have been
                   satisfied.
Risk-Based         A “supplemental” capital standard under part 325 of the FDIC Rules
Capital            and Regulations. Under the risk-based framework, a bank’s
                   qualifying total capital base consists of two types of capital
                   elements, "core capital" (Tier 1) and "supplementary capital"
                   (Tier 2).
Risk-Weighted      A system of calculating the risk-weighting of assets by assigning
Assets             assets and off-balance sheet items to broad risk categories.
Securitization     The process of pooling similar, illiquid loans and issuing marketable
                   securities backed by those loans. The securities are sold, and
                   investors in transactions receive a share of the generated cash flow.
Subprime loan      A loan made to a borrower whose credit is below good credit
                   standards and whose loans are usually referred to as marginal,
                   nonprime, or below “A” quality loans. Those borrowers pose a
                   greater risk and are characterized by paying debts late, filing for
                   personal bankruptcy and/or having an insufficient credit history.
Tangible Equity    Core capital plus outstanding cumulative perpetual preferred stock.
Capital
Thrift Financial   A thrift’s quarterly financial report that contains a balance sheet,
Report             income statement, and other detailed financial schedules. Thrifts
                   submit these reports to the Office of Thrift Supervision.
Tier 1 (Core)      Defined in part 325 of the FDIC Rules and Regulations and is the
Capital            sum of:
                        •    common stockholder’s equity (common stock and related
                             surplus, undivided profits, disclosed capital reserves, and
                             foreign currency translation adjustments, less net
                             unrealized losses on available-for-sale securities with
                             readily determinable market values);
                        •    non-cumulative perpetual preferred stock; and
                        •    minority interest in consolidated subsidiaries
                             minus
                        •    intangible assets;
                        •    identified losses;
                        • investments in securities subsidiaries subject to
                             section 337.4; and
                        •    deferred tax assets in excess of the limit set forth in
                             section 325.5(g) of the FDIC Rules and Regulations.

Tier 2             Tier 2 capital is defined in part 325 of the FDIC Rules and
(Supplemental      Regulations, and is generally the sum of:
Capital)                   • allowances for loan and lease losses, up to a maximum of
                              1.25 percent of risk-weighted assets;
                           •   cumulative perpetual preferred stock, long-term preferred
                                           44
                                                                           APPENDIX V



                               stock and related surplus;
                           •   perpetual preferred stock (dividend is reset periodically);
                           •   hybrid capital instruments; and
                           •   term subordinated debt and intermediate-term preferred
                               stock.

Total Risk-Based Total Risk-Based capital consists of the sum of Tier 1 and Tier 2
Capital          capital.
Total Risk-Based Total qualifying capital divided by risk-weighted assets.
Capital Ratio




                                           45
     APPENDIX VI




46
     APPENDIX VI




47
     APPENDIX VI




48
     APPENDIX VI




49
     APPENDIX VI




50
     APPENDIX VI




51
     APPENDIX VI




52
     APPENDIX VI




53
